<html>
<title> - COMMITTEE OVERSIGHT OF DEPARTMENT OF THE INTERIOR: QUESTIONING OF KEY DEPARTMENT OF THE INTERIOR OFFICIALS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                        COMMITTEE OVERSIGHT OF

                      DEPARTMENT OF THE INTERIOR:

                          QUESTIONING OF KEY

                           DEPARTMENT OF THE

                          INTERIOR OFFICIALS
=======================================================================



                           OVERSIGHT HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                      Thursday, September 13, 2012

                               __________

                           Serial No. 112-129

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
75-942                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      Betty Sutton, OH
Scott R. Tipton, CO                  Niki Tsongas, MA
Paul A. Gosar, AZ                    Pedro R. Pierluisi, PR
Raul R. Labrador, ID                 John Garamendi, CA
Kristi L. Noem, SD                   Colleen W. Hanabusa, HI
Steve Southerland II, FL             Paul Tonko, NY
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Jon Runyan, NJ
Bill Johnson, OH
Mark E. Amodei, NV

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, September 13, 2012.....................     1

Statement of Members:
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     1
        Prepared statement of....................................     3
    Lujan, Hon. Ben Ray, a Representative in Congress from the 
      State of New Mexico, Prepared statement of.................    48
    Markey, Hon. Edward J., a Representative in Congress from the 
      Commonwealth of Massachusetts..............................     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Ishee, Mary Katherine, Deputy Chief of Staff and Senior 
      Advisor to the Assistant Secretary for Land and Minerals 
      Management, U.S. Department of the Interior................     8
        Prepared statement of....................................     9
    Kemkar, Neal, Special Assistant, Office of the Secretary, 
      U.S. Department of the Interior............................     6
        Prepared statement of....................................     7

Additional materials supplied:
    U.S. NEWS article entitled ``Effort to Plug Well Hangs in 
      Balance'' dated May 29, 2010, submitted for the record by 
      The Honorable Ben Ray Lujan................................    48
    The Miami Herald article entitled ``Oil spill junk shot: BP 
      tries tire shreds, golf balls to clog leak'' published May 
      9, 2010, submitted for the record by The Honorable Ben Ray 
      Lujan......................................................    50
                                     



    OVERSIGHT HEARING ON ``COMMITTEE OVERSIGHT OF DEPARTMENT OF THE 
  INTERIOR: QUESTIONING OF KEY DEPARTMENT OF THE INTERIOR OFFICIALS.''

                              ----------                              


                      Thursday, September 13, 2012

                     U.S. House of Representatives

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 10:11 a.m., in Room 
1324, Longworth House Office Building, Hon. Doc Hastings 
[Chairman of the Committee] presiding.
    Present: Representatives Hastings, Gohmert, Lamborn, 
Wittman, Fleming, McClintock, Thompson, Denham, Duncan of South 
Carolina, Labrador, Noem, Flores, Landry, Johnson, Markey, 
Kildee, Holt, Sablan, Lujan, and Tonko.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    The Chairman. The Committee will come to order, and the 
Chairman notes the presence of a quorum.
    The Committee on Natural Resources is meeting today to hear 
testimony on an oversight hearing on ``Committee Oversight of 
the Department of the Interior: Questioning of Key Department 
of the Interior Officials.''
    Under Rule 4(f), opening statements are limited to the 
Chairman and the Ranking Member. However, I ask unanimous 
consent, if any Member wishes to submit a statement for the 
record, that they get it to the Committee prior to the close of 
business tonight.
    Before I recognize myself for my opening statement, the 
reason we are waiting here is Mr. Markey, the Ranking Member, 
got a call just before 10 o'clock on the fishery issue up in 
his area, and we were trying to wait to give him some time to 
get here. But his staff advises that we can go ahead and get 
started, and I do appreciate that. And when he comes, we will 
allow him to make his statement.
    For well over 2 years, Republicans on this Committee have 
been asking questions and conducting an extensive investigation 
into how and why an Interior Department report was edited to 
appear as though the moratorium in the Gulf of Mexico was 
supported by a panel of engineering experts when it was not.
    The experts were forced to rebut the implication that they 
had approved the 6-month drilling moratorium and even wrote, 
and I quote, ``A blanket moratorium is not the answer. It will 
not measurably reduce further risk, and it will have a lasting 
impact on our Nation's economy which may be greater than that 
of the oil spill,'' end quote.
    The Department may have ultimately apologized to the peer 
reviewers after they raised questions, but the Obama 
Administration has never answered basic questions regarding how 
and why the decision was made to impose a moratorium that put 
thousands of Americans out of work, whether the views of the 
engineering experts were intentionally misrepresented, and how 
the Administration initially responded to the complaints by the 
peer reviewers.
    Today, two Department officials will appear before us to 
answer questions on this matter. Neal Kemkar, Special Assistant 
to the Counselor to the Secretary, personally assisted with the 
drilling moratorium report, communicated with peer reviewers, 
and transmitted edits with White House staff. Mary Katherine 
Ishee, who served as Deputy Administrator for the Minerals 
Management Service, was also personally involved in the 
deliberations to impose the drilling moratorium and the 
drilling moratorium report. However, she was never even 
interviewed by the Office of Inspector General during this 
investigation, despite a recommendation to do so by another 
witness.
    The circumstances that have brought us all here today are 
not preferable, and I had hoped it wouldn't have come to this. 
Since the beginning of this investigation, the Department has 
stonewalled every avenue we have taken to get answers. The 
Department has largely ignored over a dozen letters seeking 
documents and answers, has failed to comply with an official 
congressional subpoena that was issued last April, and failed 
to make key Department officials available for on-the-record 
interviews.
    It was only after the threat of subpoenas came that the 
Department committed to have these two witnesses and others 
appear voluntarily. These and other witnesses were originally 
invited to appear at a July 25th hearing but failed to confirm 
their attendance less than 20 hours before the hearing. It 
wasn't until the full Committee approved a motion to provide 
subpoena authority to compel these individuals to appear, that 
the Department communicated their willingness to cooperate.
    It shouldn't take the threat of subpoenas to get 
cooperation from an Administration that boasts of openness and 
transparency. If the Obama Administration truly has nothing to 
hide, then why not turn over the requested documents? Why 
withhold documents from public view? Why ignore a congressional 
subpoena? And why resist on-the-record interviews by Department 
officials who were directly involved?
    This could have been resolved over a year ago if the 
Department had simply complied and answered questions. And, 
quite frankly, it should have been resolved 2 years ago during 
the IG's investigation, but, as we discovered, there are 
serious questions about the thoroughness and independence of 
that investigation.
    It should also be noted that subpoenas were recently issued 
to Mr. Kemkar and Ms. Ishee to provide before this hearing 
copies of all documents that were created, sent, or received by 
them between April 26, 2010, and June 30, 2010, related to the 
development, editing, review, issuance, response, or reaction 
to the drilling moratorium report. As I sit here right now, 
neither individual has complied with the subpoena for 
documents.
    This Committee is committed to getting answers and will 
continue to pursue every avenue necessary. That includes 
additional questioning of Department officials and seeking 
answers within the White House itself.
    The drilling moratorium directly impacted the lives of 
thousands of individuals in the Gulf of Mexico. It caused 
widespread economic devastation and decreased American energy 
production. The Administration falsely stated in the report 
that the moratorium was reviewed and supported by engineering 
experts, but we all know that that simply wasn't true. The 
people of the Gulf deserve to know how and why that happened, 
and I hope to get some direct answers today.
    We have two witnesses today. And as I mentioned in my 
remarks, they were invited in July, but we didn't hear until 
less than 20 hours before the hearing whether they were going 
to be here or not.
    Ah. Mr. Markey, timing is everything.
    I will recognize the distinguished Ranking Member for his 
statement.
    [The prepared statement of Mr. Hastings follows:]

          Statement of The Honorable Doc Hastings, Chairman, 
                     Committee on Natural Resources

    For well over two years, Republicans on this Committee have been 
asking questions and conducting an extensive investigation into how and 
why an Interior Department report was edited to appear as though the 
moratorium in the Gulf of Mexico was supported by a panel of 
engineering experts when it was not.
    The experts were forced to rebut the implication that they had 
approved the six-month drilling moratorium and even wrote that ``a 
blanket moratorium is not the answer. It will not measurable reduce the 
risk further and it will have a lasting impact on the nation's economy 
which may be greater than that of the oil spill.''
    The Department may have ultimately apologized to the peer reviewers 
after they raised objections, but the Obama Administration has never 
answered basic questions regarding how and why the decision was made to 
impose a moratorium that put thousands of American out of work, whether 
the views of the engineering experts were intentionally misrepresented, 
and how the Administration initially responded to the complaints by the 
peer reviewers.
    Today, two Department officials will appear before us to answer 
questions on this matter.
    Neal Kemkar, Special Assistant to the Counselor to the Secretary, 
personally assisted with the Drilling Moratorium Report, communicated 
with the peer reviewers, and transmitted edits with White House staff.
    Mary Katherine Ishee, who served as Deputy Administration for 
Minerals Management Service, was also personally involved in the 
deliberations to impose the drilling moratorium and the Drilling 
Moratorium Report. However, she was never even interviewed by the 
Office of Inspector General during its investigation, despite a 
recommendation to do so by another witness.
    The circumstances that brought us all here today are not 
preferable, and I had hoped it wouldn't have to come to this.
    Since the beginning of this investigation, the Department has 
stonewalled every avenue we've taken to get answers. The Department 
largely ignored over a dozen letters seeking documents and answers, has 
failed to comply with an official Congressional subpoena issued in 
April, and failed to make key Department officials available for on-
the-record interviews.
    It was only after the threat of a subpoena became real that the 
Department committed to have these two witnesses and others appear 
voluntarily. These and other witnesses were originally invited to 
appear at a July 25th hearing, but failed to confirm their attendance 
less than 20 hours before the hearing. It wasn't until the Full 
Committee approved a motion to provide subpoena authority to compel 
these individuals to appear that the Department communicated their 
willingness to cooperate.
    It shouldn't take the threat of subpoenas to get cooperation from 
an Administration that boasts of openness and transparency. If the 
Obama Administration truly has nothing to hide, then why not turn over 
the requested documents? Why withhold document from public view? Why 
ignore a Congressional subpoena? And why resist on-the-record 
interviews by Department officials who were directly involved?
    This could have been resolved over a year ago if the Department had 
simply complied and answered questions. And quite frankly, it should 
have been resolved nearly two years ago during the IG's investigation--
but as we've discovered, there are serious questions about the 
thoroughness and independence of that investigation.
    It should also be noted that subpoenas were recently issued to Mr. 
Kemkar and Ms. Ishee to provide before this hearing copies of all 
documents that were created, sent, or received by them between April 
26, 2010 and June 30, 2010 related to the development, editing, review, 
issuance, response, or reaction to the Drilling Moratorium Report. To 
date, neither individual has complied with the subpoena for documents.
    This Committee is committed to getting answers and will continue to 
pursue every avenue necessary. That includes additional questioning of 
Department officials and seeking answers from within the White House 
itself.
    The drilling moratorium directly impacted the lives of thousands of 
individuals in the Gulf of Mexico. It caused widespread economic 
devastation and decreased American energy production. The 
Administration falsely stated in their report that the moratorium was 
reviewed and supported by the engineering experts, but we all know that 
wasn't true. The people in the Gulf deserve to know how and why that 
happened. I hope to get some direct answers today.
                                 ______
                                 

  STATEMENT OF THE HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Thank you, Mr. Chairman, very much.
    Two weeks ago, Hurricane Isaac hit the Gulf of Mexico. It 
delayed the Republican National Convention, and it caused 
serious flooding and destruction in Louisiana. The storm also 
uncovered mats of oil left over from the BP spill. Tarballs of 
BP oil washed up on beaches in Louisiana and Alabama 2 years 
after the gushing well was killed.
    In our Committee the question is, are we going to 
investigate that? I doubt it. Instead of tracking the oil that 
is still staining Gulf beaches, the Republican leadership of 
the Committee is still tracking the changes made to a 2-year-
old report. This track-change investigation is a distraction 
from the real damage of the BP spill.
    The Interior Department completed this report in the middle 
of a crisis. The BP Deepwater Horizon rig had just exploded. 
Oil was still gushing into the Gulf of Mexico. The President 
needed input about how to respond, and he needed answers fast. 
In preparing the report, the Interior Department enlisted the 
advice of external peer reviewers and consultants, most with 
ties to the offshore drilling industry.
    The majority has obsessed over the objections of some 
reviewers, which the Department of the Interior has long since 
addressed, about language involving the 6-month drilling pause, 
which has long since ended. Yet the reviewers uniformly praised 
the quality of the report and its other critical safety 
recommendations, including those to prevent the failure of 
blowout preventers, ensure deepwater well control, and enhance 
safety testing and inspections.
    Our job here in Congress is to pass legislation, provide 
funding, and exercise oversight to make sure needed reforms 
like these are put in place. We also are being counted on to 
hold BP and its contractors accountable for the damage they 
have caused.
    Unfortunately, this Republican Congress has acted like the 
BP spill never occurred. They have put oil above all, even 
above the safety of the American people. This Congress has 
voted 148 times to preserve or provide giveaways to the oil 
industry, including legislation approved by this Committee to 
expand risky offshore drilling all along the East and West 
Coast of the United States, without passing a single piece of 
legislation to fix the safety problems exposed by the BP spill.
    What is worse, to avoid required defense cuts that 
Republicans voted for, the sequestration-delay bill they are 
bringing to the Floor today would, like the Ryan budget, slash 
everything else, including safety inspections for offshore 
drilling.
    To say that this Committee's oversight has been 
underwhelming would be charitable. This Committee has held just 
one obligatory hearing with mid-level executives from BP, 
Transocean, and Halliburton. We in the minority asked to issue 
subpoenas to compel testimony from the no-show CEOs of the 
companies responsible for the BP disaster, but the only 
subpoenas the majority has issued having anything to do with 
the BP spill relate to the editing of the report that we are 
talking about here today.
    The majority has insinuated that Administration officials 
intentionally misrepresented the views of the report's peer 
reviewers about the 6-month drilling pause, even though DOI's 
Office of Inspector General found no evidence of this.
    For the past year and a half, this is what our Committee 
has been investigating, not what killed 11 workers on the 
Deepwater Horizon rig; not what caused more than 4 million 
barrels of oil to gush into the Gulf of Mexico; not what is 
causing more of that oil to wash up on the beaches today; and 
not what has been done since to make sure this never happens 
again.
    This is worse than misplaced priorities. This is a 
dereliction of duty of this Committee to the citizens of the 
Gulf of Mexico, we need to get to the bottom of what happened 
in that ocean. Here, there is no wrong to be found. This is 
just a waste of our time, when we should be working on much 
more important things.
    I yield back the balance of my time.
    [The prepared statement of Mr. Markey follows:]

     Statement of The Honorable Edward J. Markey, Ranking Member, 
                     Committee on Natural Resources

    Two weeks ago, Hurricane Isaac hit the Gulf of Mexico. It delayed 
the Republican National Convention, and caused serious flooding and 
destruction in Louisiana. The storm also uncovered mats of oil left 
over from the BP spill. Tar balls of BP oil washed up on beaches in 
Louisiana and Alabama two years after the gushing well was killed.
    In our Committee, the question is, are we going to investigate this 
matter? I doubt it.
    Instead of tracking the oil that is still staining Gulf beaches, 
the Republican leadership of this Committee is still tracking the 
changes made to a two-year-old report. This track change investigation 
is a distraction from the real damage of the BP spill.
    The Interior Department completed this report in the middle of a 
crisis. The BP Deepwater Horizon rig had just exploded. Oil was still 
gushing into the Gulf of Mexico. The President needed input about how 
to respond, and he needed answers fast. In preparing the report, the 
Interior Department enlisted the advice of external peer reviewers and 
consultants, most with ties to the offshore drilling industry.
    The Majority has obsessed over the objections of some reviewers, 
which the Department of Interior has long since addressed, about 
language involving the six-month drilling pause, which has long since 
ended. Yet the reviewers uniformly praised the quality of the report 
and its other critical safety recommendations, including those to 
prevent the failure of blowout preventers, ensure deepwater well 
control, and enhance safety testing and inspections.
    Our job here in Congress is to pass legislation, provide funding, 
and exercise oversight to make sure needed reforms like these are put 
in place. We also are being counted on to hold BP and its contractors 
accountable for the damage they've caused. Unfortunately, this 
Republican Congress has acted like the BP spill never happened. They 
have put oil above all, even above the safety of the American people.
    This Congress has voted 148 times to preserve or provide giveaways 
to the oil industry--including legislation approved by this Committee 
to expand risky offshore drilling all along the East and West coasts--
without passing a single piece of legislation to fix the safety 
problems exposed by the BP spill. What's worse, to avoid required 
defense cuts that Republicans voted for, the sequestration delay bill 
they are bringing to the floor today would, like the Ryan budget, slash 
everything else, including safety inspections for offshore drilling.
    To say this Committee's oversight has been underwhelming would be 
charitable. This Committee has held just one obligatory hearing with 
mid-level executives from BP, Transocean and Halliburton. We in the 
Minority asked to issue subpoenas to compel testimony from the no-show 
CEOs. But the only subpoenas the Majority has issued having anything to 
do with the BP spill relate to the editing of the report we are talking 
about today.
    The Majority has insinuated that Administration officials 
intentionally misrepresented the views of the report's peer reviewers 
about the six-month drilling pause--even though DOI's Office of 
Inspector General found no evidence of this.
    For the last year and a half, this is what our Committee has been 
investigating. Not what killed 11 workers on the Deepwater Horizon rig. 
Not what caused more than four million barrels of oil to gush into the 
Gulf of Mexico. Not what's causing more of that oil to wash up on the 
beaches today. And not what has been done since to make sure this never 
happens again.
    This is worse than misplaced priorities. This is dereliction of 
duty of this committee to the citizens of the Gulf of Mexico.
                                 ______
                                 
    The Chairman. I thank the gentleman for his statement.
    We now have two witnesses before us. We have Mr. Neal 
Kemkar, who is the Special Assistant to the Office of Secretary 
within the Department of the Interior, and Ms. Mary Katherine 
Ishee, Deputy Chief of Staff and Senior Advisor to the 
Assistant Secretary for Land and Minerals Management, also 
within the Department of the Interior.
    I would just tell you how the timing lights work. We have a 
5-minute light, and when the green light is on, it means you 
are doing very well. The yellow light means that you are within 
60 seconds. And when the red light comes on, it means the 5 
minutes is up.
    Now, you submitted a statement for the record. I appreciate 
that. It is substantially less than 5 minutes, but it will 
appear in the record.
    So, with that, Mr. Kemkar, we will recognize you for your 
statement.

  STATEMENT OF NEAL KEMKAR, SPECIAL ASSISTANT, OFFICE OF THE 
           SECRETARY, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Kemkar. Thank you.
    Good morning, Chairman Hastings, Ranking Member Markey, and 
members of the Committee. My name is Neal Kemkar, and I serve 
in the Office of the Secretary at the U.S. Department of the 
Interior. I appear here today at the request of the Committee.
    I joined the Department in April 2009 as a Special 
Assistant to Steve Black, Counselor to the Secretary. In this 
capacity, my role includes assisting the Counselor in advancing 
Secretary Salazar's and the Administration's commitment to 
responsibly develop energy on our Nation's public lands and 
offshore waters.
    On April 20, 2010, the explosion and sinking of the 
Deepwater Horizon oil rig in the Gulf of Mexico killed 11 
workers and resulted in the largest oil spill in U.S. history. 
Over the course of the next 6 months, the Administration's 
response to the oil spill commanded an extraordinary amount of 
time and resources from the Department.
    Administration officials worked tirelessly with experts 
from the government, academia, and industry in a wide-ranging 
effort to conduct an extensive investigation into the Deepwater 
Horizon disaster and to respond quickly and thoroughly to this 
national emergency.
    As part of this response, on April 30, 2010, the President 
directed Secretary Salazar to prepare within 30 days a report 
that would evaluate what, if any, additional steps could be 
taken to improve the safety of oil and gas exploration on the 
Outer Continental Shelf. That report came to be titled, 
``Increased Safety Measures for Energy Development on the Outer 
Continental Shelf.'' At my supervisor's request, I joined this 
effort and assisted an exceptionally dedicated team in 
developing the report over the next 30 days.
    Mr. Chairman, members of the Committee, this concludes my 
testimony, and I would be pleased to answer any questions that 
you may have.
    The Chairman. Thank you, Mr. Kemkar.
    [The prepared statement of Mr. Kemkar follows:]

 Statement of Neal Kemkar, Special Assistant, Office of the Secretary, 
                    U.S. Department of the Interior

    Chairman Hastings, Ranking Member Markey, and Members of the 
Committee, my name is Neal Kemkar and I currently serve in the Office 
of the Secretary at the U.S. Department of the Interior (Department). I 
appear here today at the request of the Committee.
    I joined the Department in April 2009 as a special assistant to 
Steve Black, Counselor to the Secretary. In this capacity, my role 
includes assisting the Counselor in advancing Secretary Salazar's and 
the Administration's commitment to responsibly develop energy on our 
nation's public lands and offshore waters.
    On April 20, 2010, the explosion and sinking of the Deepwater 
Horizon oil rig in the Gulf of Mexico killed eleven workers and 
resulted in the largest oil spill in U.S. history. Over the course of 
the next six months, the Administration's response to the oil spill 
commanded an extraordinary amount of the Department's time and 
resources. Administration officials worked tirelessly with experts from 
the government, academia, and industry in a wide-reaching effort to 
conduct an extensive investigation into the Deepwater Horizon disaster 
and to respond quickly and thoroughly to this national emergency.
    As part of this response, on April 30, 2010, the President directed 
Secretary Salazar to prepare, within 30 days, a report evaluating what, 
if any, additional steps could be taken to improve the safety of oil 
and gas exploration on the outer continental shelf. That report came to 
be titled Increased Safety Measures for Energy Development on the Outer 
Continental Shelf. At my supervisor's request, I joined this effort and 
assisted an exceptionally dedicated team in developing the report over 
the next thirty days.
    Mr. Chairman and Members of the Committee, I would be pleased to 
answer any questions you may have.
                                 ______
                                 
    The Chairman. Ms. Ishee, you are recognized.

 STATEMENT OF MARY KATHERINE ISHEE, DEPUTY CHIEF OF STAFF AND 
SENIOR ADVISOR TO THE ASSISTANT SECRETARY FOR LAND AND MINERALS 
          MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR

    Ms. Ishee. Thank you, Mr. Chairman.
    Chairman Hastings, Ranking Member Markey, and members of 
the Committee, my name is Mary Katherine Ishee, and I currently 
serve as the Deputy Chief of Staff and Senior Advisor to the 
Assistant Secretary, Land and Minerals Management, U.S. 
Department of the Interior.
    I am here today, also at the request of the Committee, to 
provide testimony related to the May 27, 2010, Department 
report entitled, ``Increased Safety Measures for Energy 
Development on the Outer Continental Shelf.'' The Committee has 
requested that I be specifically prepared to give testimony 
regarding my role in the development, review, and editing of 
the safety measures report, how the moratorium decision in the 
report was made, the editing of peer-review language in the 
report, and activities of the Office of Inspector General.
    During the time in question, I served as a Deputy Director 
for the then-Minerals Management Service. I also worked earlier 
in my career for the Office of the Solicitor in the Department 
on Capitol Hill and as a private consultant on energy and 
environmental issues.
    In my capacity as Deputy Director, I was hired to oversee 
MMS's expanding offshore renewable energy development. However, 
approximately 12 weeks after I began at MMS, the Deepwater 
Horizon explosion and oil spill occurred. This national crisis 
necessitated an all-hands-on-deck approach from staff in MMS as 
well as throughout much of the Department and, indeed, the 
Federal Government.
    The response to the spill placed extraordinary demands on 
the agency. In addition to working to monitor the blowout and 
oil spill and helping to determine methods to contain it, 
agency staff also worked to respond to the enormous number of 
requests being made for technical and policy information, 
background data, and briefings. Interest in the crisis was 
intense from both domestic and international media, Congress, 
other Federal agencies, State and local governments, and 
members of the public.
    In late April, the President directed the Secretary of the 
Interior to prepare the report. Preparation of the report was 
led by the Office of the Secretary, with assistance from staff 
at MMS and with input from various other agencies and entities 
both within and outside the Department. These efforts commanded 
a broad, coordinated, and concerted response from the 
Department and throughout the Federal Government under 
compressed timelines and amid competing priorities and evolving 
challenges.
    I was asked by the Director of MMS to oversee MMS's 
involvement in the development of the report, in coordination 
with the Office of the Secretary. Because MMS had the expertise 
critical to developing technical measures, the chapters of the 
report dealing specifically with the technical safety 
recommendations were the primary focus of MMS staff.
    I understand that the Department is successfully 
implementing most of the safety recommendations from the report 
through rulemakings and other means. These measures have led to 
the development of technologies and practices that are 
improving the safety of offshore oil and gas development and 
enhancing the government's response capabilities in the Gulf 
and elsewhere on the Outer Continental Shelf.
    This concludes my testimony, Mr. Chairman. I am happy to 
answer questions from the Committee.
    [The prepared statement of Ms. Ishee follows:]

  Statement of Mary Katherine Ishee, Deputy Chief of Staff and Senior 
 Advisor to the Assistant Secretary for Land and Minerals Management, 
                    U.S. Department of the Interior

    Chairman Hastings, Ranking Member Markey and Members of the 
Committee, my name is Mary Katherine Ishee, and I currently serve as 
the Deputy Chief of Staff and Senior Advisor to the Assistant 
Secretary, Land and Minerals Management, U.S. Department of the 
Interior (Department). I am here today at the request of the Committee 
to provide testimony related to the May 27, 2010, Department report 
entitled, ''Increased Safety Measures for Energy Development on the 
Outer Continental Shelf'' (Safety Measures Report or Report). The 
Committee has requested that I be specifically prepared to give 
testimony regarding my role in the development, review and editing of 
the Safety Measures Report, how the moratorium decision in the Report 
was made, the editing of peer review language in the Report, and 
activities of the Office of Inspector General.
    During the time in question, I served as a Deputy Director for the 
then-Minerals Management Service (MMS).
    Approximately 12 weeks after I began at MMS, the Deepwater Horizon 
explosion and oil spill occurred. This national crisis necessitated an 
``all-hands-on-deck'' approach from staff in MMS, as well as throughout 
much of the Department and indeed the Federal government. The response 
to the spill placed extraordinary demands on the agency. In addition to 
working to monitor the blowout and oil spill, and helping to determine 
methods to contain it, agency staff also worked to respond to the 
enormous number of requests being made for technical and policy 
information, background data, and briefings. Interest in the crisis was 
intense, from both domestic and international media, Congress, other 
Federal agencies, state and local governments and members of the 
public.
    In late April, the President directed the Secretary of the Interior 
to prepare the Report. Preparation of the Report was led by the Office 
of the Secretary, with assistance from staff at MMS and with input from 
various other agencies and entities both within and outside the 
Department. These efforts commanded a broad, coordinated and concerted 
response from the Department and throughout the Federal government 
under compressed timelines and amid competing priorities and evolving 
challenges.
    I was asked by the Director of MMS to oversee MMS's involvement in 
the development of the Report, in coordination with the Office of the 
Secretary. Because MMS had the expertise critical to developing 
technical measures, the chapters of the Report dealing specifically 
with the technical safety recommendations were the primary focus of MMS 
staff.
    I understand that the Department is successfully implementing most 
of the safety recommendations from the Report through rulemakings and 
other means. These measures have led to the development of technologies 
and practices that are improving the safety of offshore oil and gas 
development, and enhancing the government's response capabilities in 
the Gulf and elsewhere on the Outer Continental Shelf.
    This concludes my testimony, Mr. Chairman. I am happy to answer 
questions from the Committee.
                                 ______
                                 
    The Chairman. Thank you both for your statements.
    I will recognize myself now for 5 minutes.
    The Department's gamesmanship and unwillingness to provide 
information and answers to the Committee is what prompted the 
Committee's recent vote to authorize subpoenas, which 
necessitated this hearing.
    You both had been on notice since last February of the 
Committee's interest in speaking to you, and the invitation 
letter for today's hearing identified topics that you should be 
prepared to discuss. I expect you to answer the Committee's 
questions about the moratorium and the White House edits to the 
peer-review language.
    With that in mind, I have a few questions, and I hope that 
we don't have any more of what I consider stonewalling which we 
have received from this Administration.
    Mr. Kemkar, first, I want to ask you, how did you prepare 
for this hearing?
    Mr. Kemkar. Mr. Chairman, I reviewed as many documents as I 
could relevant to the issues that the Committee is interested 
in.
    The Chairman. Which documents are those?
    Mr. Kemkar. Emails and documents that were involved in the 
preparation of the 30-day report.
    The Chairman. From what time period to what time period 
were those documents?
    Mr. Kemkar. Over the course of the 30 days from April 30, 
2010, when the President first directed the report, over the 
next 30 days.
    The Chairman. Were those documents that we had asked you to 
bring today?
    Mr. Kemkar. Yes, several of those documents were part of 
the Committee subpoena. Yes.
    The Chairman. Why didn't you bring them?
    Mr. Kemkar. I have been directed by the Solicitor's Office 
at the Department that those documents are agency records and 
that I am not authorized to provide those documents to the 
Committee and that the Department would be responding directly 
to the Committee's request.
    The Chairman. Have you communicated with Mr. Black 
recently?
    Mr. Kemkar. Yes.
    The Chairman. In preparation?
    Mr. Kemkar. No.
    The Chairman. Not in preparation?
    Mr. Kemkar. That is correct.
    The Chairman. When is the last time you spoke to him?
    Mr. Kemkar. Earlier this week.
    The Chairman. And it wasn't about this?
    Mr. Kemkar. Right.
    The Chairman. It was not about this.
    Mr. Kemkar. That is correct.
    The Chairman. OK.
    Let me ask you, in your preparation, were you advised by 
anybody on how to answer questions that may come before you in 
front of this Committee?
    Mr. Kemkar. Yes.
    The Chairman. Who was it that advised you?
    Mr. Kemkar. I consulted personal counsel, and I worked with 
the Department's Office of Congressional Affairs and counsel.
    The Chairman. And what was their general advice to you?
    Mr. Kemkar. Be truthful. Be honest. Answer the questions 
the Committee puts before you.
    The Chairman. And you are going to do that today?
    Mr. Kemkar. Yes, sir.
    The Chairman. OK. Ms. Ishee, how did you prepare for this 
hearing today?
    Ms. Ishee. I also reviewed a number of documents from the 
time period you requested, sir. I looked at information you 
have posted on your Web site. I reread the 30-day report--that 
would be the interim safety measures report. I read the IG 
report, and I looked at the documents provided to me by the 
Department.
    The Chairman. To your knowledge, are those the documents 
that we had subpoenaed?
    Ms. Ishee. I believe yes, some of those documents were 
documents the Committee has subpoenaed.
    The Chairman. In your view, why don't you think that those 
have been given to us?
    Ms. Ishee. I have not been personally involved in the 
document production of the Committee, but I understand the 
Department has communicated to you their interest in some of 
these documents and confidentiality interests. But I also do 
understand that the Department remains very committed and 
willing to work with the Committee to address your oversight 
needs on this matter, sir.
    The Chairman. The issue here is the peer review and the 
response of the peer reviewers to the Executive Summary.
    Mr. Kemkar, why do you think the peer reviewers reacted the 
way they did?
    Mr. Kemkar. It is my understanding that their reading of 
the language in the Executive Summary gave them the impression 
that they had been connected to the Secretary's independent 
policy decision on the moratorium.
    The Chairman. And you don't take that seriously?
    Mr. Kemkar. No, of course I do, and so does the Department. 
I believe the Department has apologized in writing from the 
Deputy Secretary; in person, the Secretary has had phone 
apologies with them and in person. Of course we take it 
seriously.
    The Chairman. All right.
    Mr. Kemkar. I was just answering the----
    The Chairman. I have a minute to go. Let's put up Exhibit 3 
here, real quickly.
    This is an email from Mr. Arnold to you. It was sent on May 
27th, a little after 2:30. You sent an email to Mr. Black over 
2 hours later, and it says, ``I suggest we wait to respond.'' 
Why did you say that?
    Mr. Kemkar. If I could, I would like to sort of discuss 
what was happening that day.
    First of all, as a point of clarification----
    The Chairman. No, I know--I have limited time----
    Mr. Kemkar. Oh, sure.
    The Chairman. I asked you a specific question. Why did you 
email Mr. Black saying, ``I suggest we wait to respond,'' 2 
hours after you received this email?
    Mr. Kemkar. During those 2 hours in question, I personally 
was involved in stakeholder briefings with members of industry 
and others that were explaining the Secretary's decisions of 
that day. There was a lot going on that day.
    And Mr. Arnold was not one of the NAE peer reviewers. He 
was a paid technical consultant on contract to the Department. 
So just to clarify, this is a separate concern. And his concern 
was not about any juxtaposition of language. He expressed 
basically disagreement with the Secretary's policy decision as 
it read in the cover letter.
    The Chairman. OK. My time here is counting down, and I just 
want to ask--briefly.
    Mr. Black responded that ``I agree,'' immediately to your 
response. Did you have subsequent conversations with Mr. Black 
as to this subject of why we wait to respond?
    Mr. Kemkar. As to the subject, no.
    The Chairman. So what you are telling me is, after you 
said, ``I suggest we wait to respond,'' and he says, ``I 
agree,'' you had no conversations at all on the subject of 
waiting to respond?
    Mr. Kemkar. Correct. What happened next is he forwarded 
this note to other more senior members of the Department, and 
he took over the response. So I didn't----
    The Chairman. You had no conversations with him beyond 
this?
    Mr. Kemkar. About responses.
    The Chairman. On this issue.
    Mr. Kemkar. About whether we wait to respond to Mr. Arnold, 
yes.
    The Chairman. All right. My time has expired.
    Dr. Fleming. Mr. Chairman, would you instruct the witness, 
Ms. Ishee, to speak up closer to the microphone?
    Mr. Kemkar. OK.
    Dr. Fleming. Ms. Ishee, not Mr. Kemkar, he is fine, but Ms. 
Ishee we are unable to hear.
    The Chairman. All right. Please do that. And I will advise 
you if we can't hear you.
    Mr. Markey is recognized.
    Mr. Markey. Thank you.
    Mr. Kemkar and Ms. Ishee, we want to thank you. You and the 
others who have worked on this report deserve our gratitude for 
serving our country so ably in a time of national crisis and 
for giving us a blueprint for preventing another catastrophic 
spill. So we thank you for that.
    Mr. Kemkar, you helped in the drafting of the 30-day 
report, including the Executive Summary; is that correct?
    Mr. Kemkar. Yes.
    Mr. Markey. You were interviewed by an agent with the 
Department of the Interior's Office of the Inspector General 
about the editing of the report. You told the agent that there 
was no intention to misrepresent the views of the peer 
reviewers. Were you being truthful?
    Mr. Kemkar. Yes, sir.
    Mr. Markey. At the time the report was released, you didn't 
think the Executive Summary implied the peer reviewers' support 
of the 6-month moratorium, did you?
    Mr. Kemkar. I did not. That is correct.
    Mr. Markey. In fact, the Executive Summary attributed the 
6-month moratorium recommendation to Secretary Salazar. It 
read, and I quote, ``The Secretary recommends a 6-month 
moratorium on permits for new wells being drilled using 
floating rigs.'' It says ``the Secretary recommends,'' is that 
correct?
    Mr. Kemkar. That is correct, sir.
    Mr. Markey. So, at that time, you believed that it was 
clear the recommendation for a 6-month moratorium came from 
Secretary Salazar, did you not?
    Mr. Kemkar. Yes, I did.
    Mr. Markey. Now, in the body of the report which followed 
the Executive Summary, it contained no reference to the 6-month 
moratorium. The Executive Summary concluded with the following: 
Quote, ``The recommendations contained in this report have been 
peer-reviewed by seven experts identified by the National 
Academy of Engineering.''
    At the time, did you understand that to refer to the body 
of the report? Is that not correct?
    Mr. Kemkar. I did. And that is a very important point. The 
recommendations contained in the report were the technical 
safety recommendations. And the language, as you just read, 
very clearly said that the recommendations contained in the 
report were reviewed by the safety experts, as you have said.
    Mr. Markey. And, again, I keep saying to the majority, 
bring in Secretary Salazar. Just have him sit here and answer 
all of these questions. Just ask him to come in, not these two 
people. Just bring in the Secretary, and I think he can explain 
it to you. But we are ignoring the person who says he made the 
recommendation, you know? And I think it would clarify a lot, 
but you continue to refuse to have the Secretary even come 
here.
    Now, Ms. Ishee, you reviewed drafts of the report, is that 
correct?
    Ms. Ishee. Yes, I did.
    Mr. Markey. Now, your responsibility in reviewing the 
drafts was to ensure the technical accuracy of the report, is 
that correct?
    Ms. Ishee. Primarily the technical accuracy of the 
technical recommendations. I was focused, working with MMS 
staff, primarily on identifying and developing the technical 
safety recommendations in the report and any other places in 
the report, including the Executive Summary, which might 
reference those, trying to ensure that they were consistent.
    Mr. Markey. Now, what role, if any, did you play in editing 
the Executive Summary and the recommendation for a 6-month 
moratorium?
    Ms. Ishee. My role in editing the Executive Summary was 
primarily limited to ensuring that the description of the 
technical recommendations was consistent with the body of the 
report. In other words, that in developing the Executive 
Summary, we didn't lose something in translation from the body 
of the report.
    I don't recall editing or commenting on the moratorium, the 
policy decision for the moratorium.
    Mr. Markey. So you had nothing to do with the 6-month 
moratorium recommendation. Is that what you are saying?
    Ms. Ishee. I don't recall being involved in discussions or 
in the editing of that.
    Mr. Markey. Thank you.
    To your knowledge, did anyone in the Administration intend 
to imply that the external reviewers endorsed the 6-month 
moratorium?
    Ms. Ishee. No, sir.
    Mr. Markey. Did you ever hear any conversation between 
Administration officials or Department of the Interior staff 
about using the external reviewers as political cover for the 
6-month moratorium?
    Ms. Ishee. No.
    Mr. Markey. No. And at any point in time did Secretary 
Salazar shy away from saying that it is his recommendation?
    Ms. Ishee. To the best of my understanding, the Secretary 
has consistently said that the moratorium decision was his 
decision.
    Mr. Markey. Did you, Mr. Kemkar, ever hear that there was 
need for political cover for the Secretary to make a 6-month 
moratorium recommendation?
    Mr. Kemkar. No, sir. It was his decision.
    Mr. Markey. OK. And was there any attempt to publicly claim 
that the peer reviewers supported the 6-month moratorium? Was 
that ever put out there?
    Mr. Kemkar. No. And, in fact, all the public materials that 
were related to this release--the press release, the 
transmittal cover memo--all specifically, explicitly said that 
the Secretary made the decision to recommend the moratorium.
    Mr. Markey. So, again, there is no evidence that Secretary 
Salazar ever wanted any political cover. He made the decision. 
He stood up. He said, let's call a time out, make sure we know 
what we are doing. And he did so boldly, courageously, 
historically.
    And we should just bring him in here, and he will just tell 
you he was going to stand up and make the decision. And so, 
having these people here is just wrong, and I continue to 
maintain that we are just investigating the wrong thing in the 
Gulf of Mexico.
    The Chairman. The time of the gentlemen has expired.
    I would just advise the Committee that the Secretary is 
always welcome to come in front of this Committee. But the 
Secretary was invited here on a coal issue and did not come 
when he was invited.
    And I have personally talked to the Secretary and said that 
if he comes up here he should be prepared to answer questions 
as to why he has not answered the subpoenas that were given to 
him last spring. And if you follow the logical extension of 
that, he would have to be prepared to explain why he should not 
be held in contempt because he hasn't complied with the 
subpoenas.
    Now, that is the conversation that I had with the 
Secretary. He, of course, is always welcome to be here.
    I recognize the gentleman from Texas, Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman.
    And I know I certainly, personally, look forward to any 
time Secretary Salazar would come. Not that I will get answers 
to my questions, but I just look forward and relish those 
opportunities.
    My friend, the Ranking Member, had indicated to the effect 
that the BP damages from Deepwater Horizon will probably not be 
ever investigated or pursued, and I hope that is not the case.
    I realize from reports I had read that the reason the 
Administration delayed was that BP was telling them, we got it 
under control. They were negotiating with BP to come out in 
support of the ``cap and trade'' bill, and they wanted a big 
energy company to come out in support of it, and that may have 
been the reason that damages continued unabated for so long 
before this Administration ever stepped up.
    My friend also said Congress has put oil ahead of people, 
and I want to let him know that is not true of the people I 
know in this body and in this Committee. But I do know that 
there are people in my district--women, single moms--who are 
saying, ``We cannot afford these gas prices. We are barely 
getting by. Please help us.'' I don't consider putting oil 
ahead of people when I try to help a single mom by doing what 
we can to bring down the price of gasoline that has been 
artificially increased because of the war against all of the 
above. I know the President says he is for ``all of the 
above,'' but then we find out that apparently just means he is 
for ``all above the ground.'' But he has a war, with the 
Secretary of the Interior and this Department, with things 
underground, using the EPA, the Department of the Interior. The 
people that are hurting are real people, and that is who we 
want to help.
    There was also mention of voting giveaways to the oil 
companies. We have researched every which way we can, and we 
hear giveaways, we hear subsidies. A subsidy is defined as a 
gift or grant of money. We cannot find a single gift or grant 
of money to a single oil company, unless there was some special 
deal with BP, trying to get them to come out in support of cap 
and trade. But, otherwise, we can't find anything. And so there 
are no giveaways.
    Now, oil companies are allowed to deduct the price of doing 
business. And the things that this President proposed in his 
job-killing bill actually will kill independent oil producers 
in America that produce 94 or 95 percent of all the oil and gas 
wells drilled and operated in America. And all it will do is 
send more energy, more money to the Middle East. And we 
understand there is some kind of special feelings there, with 
this Administration.
    The government has a responsibility to be honest, and if 
the government intentionally misled or recklessly misled the 
American people and this Committee, it is important that we 
find out. That is why, after over 200 years of jurisprudence, 
the rules of evidence are that the credibility of a witness 
and, in our case, of an agency is always relevant. That is why 
this hearing is relevant. That is why it is important. If there 
was a misleading, a misrepresentation, then it is important 
that we get to the bottom of it.
    Mr. Kemkar, I want to know: Do you personally, anywhere 
within your control, anywhere that you have access, have copies 
of the documents, any of the documents that were requested by 
the subpoena?
    Mr. Kemkar. Yes. As I said to the Chairman, I do have 
access to documents at the Department----
    Mr. Gohmert. OK.
    Mr. Kemkar [continuing]. That would be relevant.
    Mr. Gohmert. At which department?
    Mr. Kemkar. At the Department of the Interior, at work.
    Mr. Gohmert. Where you are working right now. OK. But you 
were directed specifically not to produce those.
    Mr. Kemkar. Yes.
    Mr. Gohmert. And I may have missed it, but what is the name 
of the person that so directed you?
    Mr. Kemkar. I was directed by the Office of the Solicitor, 
specifically by the Acting Principal Deputy Solicitor.
    Mr. Gohmert. And that would be?
    Mr. Kemkar. That would be Mr. Jack Haugrud.
    Mr. Gohmert. OK, thank you.
    And I would also add to your direction from them that we 
direct that you not eliminate, destroy, give back, give away 
any of those documents currently under your control. OK?
    Mr. Kemkar. Yes, sir.
    Mr. Gohmert. All right, thank you.
    And what was the legal basis, the privilege that was being 
claimed when you were directed not to turn those documents 
over?
    Mr. Kemkar. The Solicitors have directed me that those 
documents are properly considered agency documents under their 
custody and control and that I am not authorized to produce 
them to the Committee myself.
    Mr. Gohmert. Did they give any reason why those documents 
would be privileged and not be available, is national security 
at risk if your documents are provided?
    Mr. Kemkar. No, they did not provide any national security 
reason to me, just that they are agency documents and that I 
personally----
    Mr. Gohmert. OK.
    Mr. Kemkar [continuing]. Am not authorized to produce them.
    Mr. Gohmert. All right, thank you.
    Do you know of any national security risk if you turn those 
documents over?
    Mr. Kemkar. I don't.
    Mr. Gohmert. All right, thank you.
    I yield back.
    The Chairman. The time of the gentlemen has expired.
    The Chair recognizes the gentleman from the Northern 
Marianas, Mr. Sablan.
    Mr. Sablan. Thank you very much, Mr. Chairman.
    And, Mr. Kemkar and Ms. Ishee, thank you very much for 
joining us this morning.
    I cannot agree more with Mr. Gohmert because the islands I 
represent, gasoline could be as high as $6.25 a gallon. And the 
BP disaster does not just raise gas 15 time zones away, it 
affects us also, but there were people that were killed.
    Mr. Chairman, when we were having this conversation earlier 
in a previous meeting, I also asked that we invite the 
Secretary of the Interior to our offices as individual Members. 
In my personal office, my staff do things that sometimes I 
don't like, but I am ultimately responsible. And I would like 
to see Secretary Salazar come here and respond to our 
questions, rather than bringing in these two fine officials.
    I would also like to say that, at this time, we have 50 
percent more floating rigs in the Gulf than before the BP 
disaster, just to set the record straight also here, because 
somebody said that, you know, the absence of floating rigs may 
be the cause of high gasoline on the mainland.
    The majority of this Committee has refused to invite the 
CEOs of largest oil companies to testify on what changes they 
have made as industry leaders to improve the safety of offshore 
drilling following the spill. In fact, BP's CEO, Mr. Dudley, 
has never testified before Congress since assuming that 
position.
    We didn't cause that disaster; BP did. And we need to know 
from them why it happened. And we need to know from the heads 
of the largest oil companies that should come before Congress 
so that the American people can hear what actions they have 
taken to improve the safety of offshore drilling and assume a 
leadership role in developing a new safety culture.
    Mr. Chairman, at this time, I yield my time to Ranking 
Member Markey.
    Mr. Markey. I thank you very much. And let me just follow 
up on what you just said.
    I mean, here is the beauty of the Obama ``drill, baby, 
drill'' program. On the day George W. Bush walked out of that 
White House, our country was 57 percent dependent upon imported 
oil. And today, under President Obama, just 3\1/2\ years later, 
we are down to 45 dependence upon imported oil. Now, that is a 
real tribute. That hasn't happened ever.
    We are at an 18-year high for drilling in our country, and, 
by the way, we are also at an 18-year low for our greenhouse 
gases going up into the atmosphere. What a record. What a great 
President. What a great oil and gas President. What a great 
environmental President. You just can't top that record.
    Because the numbers, the arithmetic--it is all arithmetic. 
Now, here is the problem. The numbers didn't add up for 
President Bush, but the numbers, the arithmetic--it is not even 
math. It is not calculus, it is not trigonometry. Just simple 
arithmetic: 57 percent dependence with Bush, 45 percent for 
Obama. Wow, what a record.
    Good luck, everybody. Good luck trying to twist that 
around. Good luck. Good luck on that arithmetic.
    Mr. Gohmert. Will the gentleman yield?
    Mr. Markey. And so I just have a hard time believing that 
you are going to try to make that case. That is why the polling 
says that Obama has a 10- to 13-point lead over Romney on 
energy issues, because you keep going down an empty hole. OK? 
Obama is over here really drilling and doing a good job 
bringing up that oil for the American people.
    Mr. Kemkar, I want to ask you about how the edits were made 
in the final stages. These were incremental edits made by you, 
Steve Black, and Joseph Aldy at the White House, is that 
correct?
    Mr. Kemkar. That is correct, sir.
    Mr. Markey. Yes. In an earlier draft that Mr. Aldy sent to 
Mr. Black and you, the moratorium recommendation appeared under 
a subhead labeled ``Additional Recommendations.'' This section 
followed a summary of recommendations from the body of the 
report; is that correct?
    Mr. Kemkar. That is correct.
    Mr. Markey. Yes. Then Mr. Black sent a draft back to Mr. 
Aldy that removed the ``Additional Recommendations'' subhead. 
However, the technical peer-reviewed recommendations were still 
separated from the moratorium recommendation by a chart listing 
the technical recommendations; is that correct?
    Mr. Kemkar. That is correct.
    Mr. Markey. Yes. You then sent a draft to Mr. Black that 
moved the moratorium recommendations above the chart because 
you thought the Secretary's policy recommendations deserved 
prominence; however, the language stating that the 
recommendations in this report were peer-reviewed still 
appeared just after the chart with the peer-reviewed technical 
recommendations. Is that correct?
    Mr. Kemkar. That is correct.
    Mr. Markey. Yes. So at 2:00 a.m. Mr. Aldy then sent the 
final draft to Mr. Black and you that moved the chart listing 
the peer-reviewed technical recommendations to the very end of 
the Executive Summary. That collapsed the moratorium 
recommendation and the language stating that the 
recommendations in this report were peer-reviewed. Is that 
correct?
    Mr. Kemkar. Yes.
    Mr. Markey. OK. So the chronology hardly suggests a 
conspiracy to mislead. It was incremental, accidental editing 
done by a team of people under enormous pressure. Is that not 
correct?
    Mr. Kemkar. It is correct.
    Mr. Markey. Thank you. I appreciate that.
    Mr. Kemkar. Thank you.
    The Chairman. The Chair recognizes the gentleman from 
California, Mr. Denham.
    Mr. Denham. Thank you, Mr. Chair.
    And I am actually encouraged to see the Ranking Member, not 
even he could get that spin out without breaking a smile on 
that one because it was comical.
    I do agree that imports are down, greenhouse gases are 
down. But if you are going to champion the fact that our 
businesses are shutting down and that people are not able to 
afford gas to put in their car, that that is somehow some kind 
of great record, it is not the kind of record I want to have in 
my district, where we have twice the national average, where 
power plants are shutting down, businesses are shutting down 
because of this President and the policies that he is 
producing.
    So certainly not a record that I would want to run on. 
Seeing the unemployment rate continuing to skyrocket is 
disappointing for our Nation.
    And I yield the balance of my time to Mr. Gohmert.
    Mr. Lamborn. Lamborn.
    Mr. Denham. Lamborn. Sorry.
    Mr. Lamborn. Well, I thank the gentleman for yielding.
    Mr. Gohmert. I would be glad to take it. I mean, I have a 
lot I want to say.
    Mr. Lamborn. Well, I thank the gentleman for yielding.
    And thank you both for being here.
    Ms. Ishee, I want to focus on your role in some of the 
early meetings of the drilling safety group. We have documents 
where you were copied on emails that included drafts of the 
drilling moratorium report.
    Also on those emails was the Acting Inspector General, Ms. 
Kendall, and others for comments or on invitations for meetings 
where the draft report was discussed. Ms. Kendall has recently 
testified before Congress that she attended these meetings, 
arguing that she was an active listener.
    Were you all in the same room, including Ms. Kendall, when 
they had these meetings and phone calls?
    Ms. Ishee. I will just say as a preface, quick preface, to 
make clear what my answer is, that was an extremely busy time, 
and there were a tremendous number of meetings on a tremendous 
number of topics related to this bill. So I will give you the 
best of my recollection as to those particular ones.
    I do recall that, early on, the Safety Oversight Board had 
asked those who were working, myself and others, on the safety 
report, if they had briefings from MMS staff, informational 
briefings such as on what BOPs were and what deepwater drilling 
was all about, if they could be included in those briefings.
    As I recall, the reason for that was that MMS was being 
asked----
    Mr. Lamborn. And was she in the room for some of these same 
meetings with you?
    Ms. Ishee. My recollection is that she was in the room for 
possibly one of those informational briefings.
    Mr. Lamborn. Now, what was the purpose of sending drafts of 
the outline and report to her? And why would Mr. Black be 
asking for comments if he didn't want comments from her?
    Ms. Ishee. I don't recall that she was sent drafts of the 
report. She may have been CC'ed, copied on outlines, the early 
outlines of the report. And I don't know why Mr. Black would 
have asked for comments, except that possibly if she were CC'ed 
on them--copied on them, I should say--that often we were 
copied on documents that we weren't directly----
    Mr. Lamborn. Do you remember if at any time she had 
comments or made recommendations, whether it was by email or in 
person, over the phone?
    Ms. Ishee. I don't recall any comments received from her, 
no.
    Mr. Lamborn. Do you know if any minutes or notes were kept 
from these meetings or if the meetings or calls were recorded?
    Ms. Ishee. Not to the best of my knowledge.
    Mr. Lamborn. Was the draft report discussed at any of these 
meetings, the report we are talking about here?
    Ms. Ishee. As I said, I only recall one meeting that she 
may have been at, which was an informational briefing. That 
would have been very early on, and we would not have yet 
developed the report, to the best of my recollection. So I 
don't recall whether, though, the report itself was mentioned.
    Mr. Lamborn. Was the moratorium discussed at that or any of 
these similar meetings?
    Ms. Ishee. Not at all, to the best of my recollection, no.
    Mr. Lamborn. So your testimony is that the moratorium was 
not discussed.
    Ms. Ishee. I believe it was not.
    Mr. Lamborn. You and Mr. Kemkar were both copied on a May 
17th email from Steve Black to Wilma Lewis and Mary Kendall 
thanking them for participating on the call with the peer-
review experts and sending copies of the draft report 
recommendations.
    Do you object to his use of the term ``participating'' to 
describe their roles?
    Ms. Ishee. My recollection is that they may have been 
copied on some of those emails. I don't know if they 
participated in the calls.
    Mr. Lamborn. So you think he was not using the right 
determination of their role?
    Ms. Ishee. I don't recall whether that email was sent to 
them specifically or whether they were just copied on it.
    Mr. Lamborn. It says, ``Wilma et al., thank you for 
participating on the call today with the NAE identified 
experts. I would be grateful for your comments and any 
suggested changes. As always, please do not forward beyond this 
group except on an as-needed basis and with appropriate 
caution.''
    So he thanked them for participating. Do you disagree? Do 
you object to that use of language by Mr. Black?
    Ms. Ishee. I don't remember the specific email that you are 
referring to, so I don't know the context of it exactly.
    I don't recall personally participating or being aware of 
their actual participation. So I don't recall. You know, I 
don't know the total context of that email. We had a million 
emails, it seemed, around that period.
    Mr. Lamborn. And very quickly, one last question. Did you 
watch the August 2nd testimony where she testified?
    Ms. Ishee. Yes, sir, I did.
    Mr. Lamborn. And what was your reaction to her answers?
    Ms. Ishee. As I recall, I thought she sounded truthful.
    Mr. Lamborn. You thought she sounded truthful.
    Thank you. I yield back.
    The Chairman. The time of the gentlemen has expired.
    The Chair recognizes the gentleman from New Mexico, Mr. 
Lujan.
    Mr. Lujan. Thank you very much, Mr. Chairman.
    We need to be aware of what we say, Mr. Chairman. When we 
say that the President supports terrorist regimes? I don't 
think anyone in here really believes that, Mr. Chairman, and 
that is dangerous. We love our country, and our President loves 
our country.
    We are here to talk about--again, we have talked about this 
several times. Why are we here? Why are we having hearings 
about what happened in the Gulf? Lives lost; devastation that 
took place in the Gulf; trying to get to the point where we 
don't want something like that to happen again. I don't think 
anybody does, especially our Members that represent the 
beautiful districts that were impacted.
    You know, I imagine, Mr. Chairman, that when young people, 
as part of their school day, are watching us and some of them 
tune into C-SPAN in their civics classes to watch the way we 
interact with one another--a couple weeks ago, Members were 
pretty tough on you. And I know when I go back home, people ask 
me about, where is the civility? Where is the respect? Where 
can we find a way to respectfully disagree but ask the tough 
questions that need to be asked, in a way that answers the 
questions, not just beats up our witnesses?
    And, Mr. Chairman, look, when we talk about the price at 
the pump, the President doesn't want higher prices at the pump. 
Heck, I don't even think Governor Romney wants higher prices at 
the pump. That is not what this is about. What can we do to 
lower prices at the pump? And I have asked this every time we 
have had a hearing on anything that has to do with fuel pries 
and with oil or gas.
    Why can't we move a bipartisan piece of legislation that 
many of us in this room are both co-sponsors of called the 
Natural Gas Act that will be able to empower 18-wheelers to 
move natural gas on the interstate system? Why? We want to stop 
sending money to rogue nations; we want to keep those dollars 
here in America? Let's move this bill. Let's move this bill and 
work with our partners in the Senate to get it to the President 
and lower prices for the American consumer. Increase demand for 
what we are seeing with the impact of natural gas. Why can't we 
do it?
    We don't have to wait for an election. We don't have to 
wait until next year. We have this week and next week left 
before the election, maybe another week if it is not taken 
away, to move this legislation. Let's get it done. Let's send 
the right message to the American people and to American 
businesses.
    I certainly hope, Mr. Chairman, that is something that we 
concede. Many of us have talked to one another about this bill. 
Let's move it. Let's get it to the Floor and pass it and get it 
done.
    But we have heard a lot about the dispute over the 
recommendation of a 6-month moratorium or a pause. I think you 
can interchange those words. Now when I was home, Mr. Chairman, 
sometimes I would say ``pause,'' sometimes I would say 
``moratorium,'' sometimes we would say ``stop.'' And I use them 
interchangeably because when we had those Webster dictionaries 
up here--and I think that staff can get them out if we need to 
pull them out again, Mr. Chairman, we can look at them.
    But as we look at this, the 6-month moratorium has ended, 
and now there are 50 percent more offshore drilling rigs 
operating in the Gulf than before the BP spill. And we are a 
little safer because of it, 50 percent more. Oil production is 
at a 14-year high, right, 18? I apologize, Mr. Chairman. I said 
14, I meant 18. I stand corrected. Natural gas at an all-time 
high of production.
    Dr. Fleming. Would the gentleman yield?
    Mr. Lujan. In a second, Mr. Fleming. My time is going to 
run out here.
    And our dependence on foreign sources of oil is at a 20-
year low. Fifty percent more offshore drilling rigs operating 
in the Gulf than before the spill.
    Instead of wasting our time on this baseless investigation, 
we should be looking into how these reforms are progressing and 
how the industry is implementing them so we can prevent more 
lives from being lost, so we can still hold what is happening 
with production, so we can help the American people.
    Mr. Markey. Would----
    Mr. Lujan. And if we are serious about this, let's pass an 
amendment that says what is being produced in America is going 
to be for American use. That is the only way to guarantee that 
increased production in the United States will have an impact 
on the pump.
    I yield to Ranking Member Markey.
    Mr. Markey. Thank you.
    A little arithmetic. When Bush left, 750,000 jobs a month 
were being lost. We went to 10.2 percent unemployment under the 
Bush recession. Now it is at 8.1 percent. Get the arithmetic on 
that: 10.2 percent, Bush; 8.1 percent now.
    And the Dow went to 6,500 under Bush's recession. It is now 
at 13,000. So, if you are in the 4th grade, you go, 6,500 times 
2, double, equals 13,000.
    So do the arithmetic, and what do the Republicans say? 
Let's go back to Bush's policies. Well, the arithmetic doesn't 
add up. Who wants to go back to 10.2 percent unemployment with 
his policies and 6,500 on the Dow, when it is 13,000 on the Dow 
and 8.2 percent?
    The arithmetic just doesn't work for you guys, OK? This is 
what you are down to, investigating these two people on an 
editing change.
    The Chairman. The time of the gentlemen has expired.
    The Chair recognize Dr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman.
    Mr. Chairman, I don't blame the minority for wanting to 
change the subject on this.
    First of all, production offshore and on Federal lands is 
down 15 percent. Yes, net production is up overall, but that is 
on private lands, that is the private sector. Everything that 
this President has touched has reduced the production of oil. I 
think the gentleman's rig count is way off. I don't think there 
is any increase in rig count whatsoever.
    But it is more than that; it has affected gas prices. Gas 
prices are at an all-time high. What about jobs in Louisiana? 
There has been a net loss of 19,000 jobs as a result of the 
moratoria, $1.1 billion of lost wages to people in Louisiana, 
and a net negative impact of $12 billion to the local economy.
    Now, what about this executive report? Supposedly, it was 
an editing mistake or something like that. I find that just 
amazing because, first of all, as I said, this report led to a 
moratorium, a 6-month moratorium. When this information came 
out, the President went back and did another moratorium. The 
court struck it out, and then he did it again. So it is very 
obvious what the intent was here.
    But this is what it says: ``Drilling operation should cease 
as soon as safely practicable for a 6-month period.'' The very 
next sentence says, ``The recommendations contained in this 
report have been peer-reviewed by seven experts identified by 
the National Academy of Engineering.''
    It is obvious what is going on there. That was intended. 
And the follow-up moratorium fully support that.
    So here are my questions, and again, I say to our witnesses 
today that your credibility is on the line here.
    Mr. Kemkar, from the limited number of documents made 
available to the Committee, it appears that you had a 
significant role in recruiting and negotiating with the peer 
reviewers and in helping to coordinate the Department's 
response to their complaints.
    Question one: Was there ever discussion with the peer 
reviewers on the difference between technical safety 
recommendations that they would review and political 
recommendations that they would not?
    Mr. Kemkar. No, sir. There was no discussion at all about 
the moratorium or any other political recommendations. It was 
clear to them from the outset, based on my involvement with 
them, that their work was limited to that on which they were 
expert: the technical safety recommendations that were the main 
focus of the report.
    Dr. Fleming. All right. So there was no indication that 
they would support a moratorium?
    Mr. Kemkar. Well, just to clarify, there was no indication 
of what their opinion at all was----
    Dr. Fleming. Well, that was not the question. The question 
is, did they indicate that it would, and your answer is, no, 
there was nothing that would suggest that.
    Was a moratorium recommendation or any short-term full stop 
in the drilling operation ever discussed with the peer 
reviewers before the report was issued?
    Mr. Kemkar. It was present in the May 25th draft that they 
saw, but for the reason that I just stated, it wasn't discussed 
with them, because it wasn't their role to comment on it.
    Dr. Fleming. Why was the Department so reluctant to have 
the moratorium peer-reviewed?
    Mr. Kemkar. Well, it is not, sir, that the Department was 
reluctant. It is just that there were separate tracks, there 
were separate decisions, there was one set of decisions that 
was happening----
    Dr. Fleming. Well, sir, the sentences that I said were 
conflated here. They were put right next to each other. First, 
yes, there is going to be a 6-month moratorium, and very next 
sentence says that the peer reviewers agree with the 
recommendations. But you are saying that they were totally 
disassociated. That makes no sense.
    Mr. Kemkar. Well, Congressman, if you heard Congressman 
Markey's chronology, I think that laid bare the difference of 
what was happening here. It was a series----
    Dr. Fleming. I don't believe Congressman Markey was 
involved in that process, so I am not going to lend credibility 
to that.
    Was it because the Department was afraid that they would 
say it would not increase safety?
    Mr. Kemkar. I am sorry, Congressman?
    Dr. Fleming. Well, again----
    Mr. Kemkar. Could you repeat that?
    Dr. Fleming. Yes, a follow-up question. Is there any 
indication, did they indicate in any way that any moratoria at 
all would increase safety?
    Mr. Kemkar. They did not comment, or neither were they 
asked to comment, on a moratorium.
    Dr. Fleming. OK. So there was no reason to believe, at 
least from the experts, that safety would be enhanced in any 
way through any moratoria.
    Mr. Kemkar. Just to repeat, they were never asked about----
    Dr. Fleming. But they never volunteered it, either, did 
they?
    Mr. Kemkar. That is right.
    Dr. Fleming. OK.
    Mr. Kemkar. Yes.
    Dr. Fleming. It appears that the peer reviewers were asked 
to provide comments on the May 17th version of the draft report 
recommendations, as well as the later May 25th version that was 
apparently sent to the White House.
    Question: Did either of these versions sent to the peer 
reviewers contain a draft of the Executive Summary?
    Mr. Kemkar. The May 25th report did, yes.
    Dr. Fleming. OK. Did either of those drafts given to the 
peer reviewers discuss the moratorium?
    Mr. Kemkar. The May 25th draft did, yes.
    Dr. Fleming. And can you connect that in any way for us, 
what the draft said and how that related to the peer-review 
process?
    Mr. Kemkar. Sure, I am happy to try. Again, this was just 
over 2 years ago. But in preparing for this hearing, I did 
review several of the documents, so if this can be helpful to 
the Committee, let me try to lay it out.
    As we discussed earlier, the draft that they saw on the 
morning of May 25th at 9:30 a.m. and we discussed that evening 
at 5:00 p.m. contained in the Executive Summary a listing of 
the Secretary's moratorium recommendation under a sub-header 
that said ``Additional Measures.''
    So, to connect it, over the next several days, over the 
next 2 days, the whole report, including the Executive Summary, 
underwent a series of additional edits. Some of those edits 
included removing that ``Additional Measures'' sub-header but 
still retaining a huge, page-long chart in between the 
Secretary's policy recommendation and the technical safety 
recommendations.
    And then that version was sent over to White House staff, 
Mr. Aldy in particular, the evening of Wednesday, May 26th. And 
that version came back further edited from Mr. Aldy, with that 
chart moved to become Table Executive Summary 1.
    And I believe that the confluence over the series of edits 
there, of copyedits, basically led to the confusion. Because 
once the chart was removed and that sub-header was removed, by 
different people, over a series of edits, working in a team, 
that basically the distinction----
    Dr. Fleming. I understand.
    Just as I yield back, let me just say that----
    The Chairman. The time has expired.
    Dr. Fleming [continuing]. It is pretty obvious that it was 
not by accident; it was by intent.
    The Chairman. The Chair recognizes the gentleman from 
Texas, Mr. Flores.
    Mr. Flores. Thank you, Mr. Chairman.
    Mr. Kemkar, Committee staff were allowed to review but they 
weren't give a copy of the May 25th memo that you were just 
talking about with Mr. Fleming. And that was the draft of the 
Executive Summary that we have been talking about.
    That draft references an Appendix A that doesn't appear in 
the final version of the report. And that appendix appears to 
suggest that the Department was considering and the peer 
reviewers were asked to consider, rather than a blanket 
moratorium, a process that would allow operators to resume 
operations quickly if they could satisfy a list of safety 
requirements that were included in that Appendix A.
    In the final version of the report, the Appendix A was 
changed. It now lists the peer reviewers, and the blanket 
drilling moratorium was imposed instead.
    I want your help to understand what was in the original 
Appendix A that the Administration refuses to share with the 
Committee but that was a key component of the peer-reviewed 
document. Indeed, it appears that the original Appendix A 
counteracts what the Administration ultimately did when it 
imposed the drilling moratorium.
    So my questions are this. Who wrote the original Appendix 
A?
    Mr. Kemkar. I don't recall.
    Mr. Flores. OK.
    Mr. Kemkar. There were a number of drafts going around. I 
don't recall.
    Mr. Flores. Number two, why won't you share the original 
Appendix A with Congress, when it is part of our 
constitutionally mandated oversight duty to look at things like 
this?
    Mr. Kemkar. Congressman, I appreciate the oversight duty of 
this Committee. I am not personally involved in the production 
of documents to the Committee. I am here as a fact witness to 
help the Committee with what I can tell them.
    Mr. Flores. Did the version of the drilling report that 
went to the White House include the safety review process that 
we talked about in the original Appendix A?
    Well, let me rephrase that. Did the version of the drilling 
report that went to the White House include the safety review 
process, apparently referred to as Appendix A, that would allow 
operators to resume drilling if they met certain safety 
requirements?
    Mr. Kemkar. Sorry, Congressman, I am not following. Can you 
tell me, when you say it went to the White House, what day--
just--I don't understand the question.
    Mr. Flores. On the May 25th draft, there was an Appendix A 
that had this temporary pause in drilling, have operators 
comply with a safety review process, and then a quick restart 
of drilling. That was in the original Appendix A, apparently.
    Now, did the version of the drilling report that went to 
the White House have that Appendix A in it?
    Mr. Kemkar. Without having the documents in front of me, I 
couldn't say whether it was included or not.
    Mr. Flores. OK. So you probably won't have the answer to 
the next question: How did that safety review process work? Do 
you know?
    Mr. Kemkar. When you say the safety review----
    Mr. Flores. In the original Appendix A, it had the pause, 
then a safety review, and then a restart.
    Mr. Kemkar. I couldn't say. No, I don't----
    Mr. Flores. Don't know how it works.
    Mr. Kemkar. Yes. Sorry.
    Mr. Flores. It appears that no one asked the peer reviewers 
whether a blanket 6-month moratorium would increase safety. I 
mean, we have kind of said that already.
    Were the peer reviewers asked to review and comment on the 
process set forth in the Appendix A that was in the original 
May 25th draft?
    Mr. Kemkar. Again, without remembering exactly what is in 
that appendix, the clearest way I can say it is, the peer 
reviewers were asked to review that on which they were expert: 
technical safety recommendations--nothing else, nothing less.
    Mr. Flores. OK. So we don't know the answer to this one: 
Did they comment that it would have been safer and a lot less 
economically harmful to do that instead of a blanket 
moratorium?
    Mr. Kemkar. You are correct; we don't know the answer to 
that.
    Mr. Flores. OK.
    And then last, but not least, why were shallow-water 
operations included in the ultimate moratorium when this 
accident occurred on a deepwater drilling rig in conditions 
that are totally different, technically and operationally, as 
compared to each other?
    Mr. Kemkar. Congressman, if you are asking me about the 
substance of the moratorium, as Special Assistant, I was not 
involved in the policymaking decisions----
    Mr. Flores. Did you hear anybody talk about it?
    Mr. Kemkar [continuing]. About whether to implement the 
moratorium. And my focus was based on this report and moving it 
forward, getting it done under incredible pressure and in a 
tight timeline.
    Mr. Flores. I understand that, but did you overhear 
anybody, I mean, the Secretary or your boss, talking about, 
let's go ahead and throw in shallow-water operations, too, so 
we can throw another several thousand people out of work?
    Mr. Kemkar. No, sir.
    Mr. Flores. You didn't?
    Mr. Kemkar. No.
    Mr. Flores. OK. All right. I yield back.
    Mr. Lamborn. [presiding.] The Chair recognizes 
Representative Landry of Louisiana.
    Mr. Landry. Ms. Ishee, as part of this investigation into 
the drilling moratorium report, the IG interviewed Steve Black, 
Neal Kemkar, and your former boss, Ms. Liz Birnbaum. However, 
the IG never requested documents from you or interviewed you, 
even though Ms. Birnbaum suggested they do so.
    According to her, there was a lot--and I will quote--and 
this is an exhibit that I have. According to her, there was a 
lot of interest in the report from the White House, and you 
worked with several people from the White House on developing 
the drilling moratorium. That is the exhibit up here. That is 
from her comments.
    Can you tell me exactly who you worked with from the White 
House?
    Ms. Ishee. Yes. Early in the process, maybe early May, as I 
said, MMS was providing staff support to the Office of the 
Secretary, which was developing the report. And early on, we 
understood that the report would be developed in coordination 
and consultation with White House staff.
    And so, very early in the process, we were put in touch 
with White House staff. I may even have had some communication 
via email with career staff at the White House and others 
about----
    Mr. Landry. Any particular people that come to mind by 
name?
    Ms. Ishee. I recall that the agencies that were involved 
were some career folks at OMB, some at CEQ. I believe there 
were people from----
    Mr. Landry. How about Carol Browner?
    Ms. Ishee. I don't recall Carol Browner being----
    Mr. Landry. Heather Zichal?
    Ms. Ishee. Pardon me?
    Mr. Landry. Heather Zichal, Z-I-C-H-A-L?
    Ms. Ishee. Heather----
    Mr. Landry. Joe Aldy--Heather?
    Ms. Ishee. I am sorry. Ms. Zichal may have been copied on 
some of those early emails.
    Mr. Landry. Joe Aldy?
    Ms. Ishee. Yes, I believe he was copied, yes, or----
    Mr. Landry. OK.
    Ms. Ishee [continuing]. Yes, was involved.
    Mr. Landry. Do you remember having any electronic exchanges 
by email or other documents reflecting these communications?
    Ms. Ishee. Yes. Especially early in the process, there were 
a few communications between White House staff, who were 
helping with the report, especially the informational sections 
of the report but possibly others, and my staff and I. 
Particularly, they gave suggestions on ideas that may be 
addressed in the report, for example.
    Mr. Landry. According to the IG's transcript, you had 
informed Ms. Birnbaum that the moratorium had been inserted 
into the report's Executive Summary by Steven Black at the 
direction of the White House. Is that correct?
    Ms. Ishee. I don't recall saying those precise words to Ms. 
Birnbaum, but I do recall that I explained to her that the 
Executive Summary had been drafted by the Office of the 
Secretary in coordination with the White House.
    Mr. Landry. Do you remember specifically about the 
insertion of the moratorium?
    Ms. Ishee. Yes, my recollection of the conversation I had 
with Ms. Birnbaum was that she asked me why the moratorium 
language had been placed in the Executive Summary, and my 
recollection is that I explained to her that the Office of the 
Secretary had been drafting the Executive Summary. I had not 
been involved in the discussions about that policy decision, 
but I assumed that--I knew that the Secretary's Office and the 
White House had been consulting together on this. And so, 
therefore, I assumed that this was in consultation with the 
White House.
    Mr. Landry. So you don't know exactly who inserted the 
moratorium language into the Executive Summary. Would that be a 
fair statement? I mean, you can make an assumption, I mean, I 
would hate for you to go on record on an assumption; that 
wouldn't be very fair. That is OK, I am just curious.
    But somebody did insert it into the Executive Summary. By 
deductive reasoning, it would either be the White House or the 
Secretary's Office. Would that be a fair statement?
    Ms. Ishee. I don't know if that would be a fair statement 
or not. I don't know who inserted that language. But I do know 
that the Secretary's Office was drafting the Executive Summary 
in coordination with White House staff.
    Mr. Landry. Did you ever have any conversations with the 
White House about the decision to insert the moratorium into 
the Executive Summary or have any conversations at all with the 
White House concerning the language of the moratorium?
    Ms. Ishee. I don't recall having any conversations of that 
nature.
    Mr. Landry. OK.
    Mr. Chairman, I yield back.
    The Chairman. [Presiding.] The Chair recognizes the 
gentleman from California, Mr. McClintock.
    Mr. McClintock. Thank you, Mr. Chairman.
    Mr. Kemkar, Ms. Ishee, you have both refused to comply with 
a lawful subpoena issued by the U.S. House of Representatives. 
That is a very, very serious and grave matter.
    Now, Mr. Kemkar, you testified earlier that you had been 
advised by the Solicitor General that you should not provide 
the Committee with these subpoenaed documents?
    Mr. Kemkar. No, sir. By the Office of the Solicitor at the 
Department of the Interior.
    Mr. McClintock. Is not the Office of the Solicitor General 
advisory and not authoritative?
    Mr. Kemkar. I am sorry? The Office of the Solicitor General 
is not involved here. The Office of the Solicitor at the 
Department of the Interior has instructed me that the documents 
that the Committee seeks are agency records and that I am not 
authorized to----
    Mr. McClintock. Are they in a position of authority over 
you, or is this simply advice that you are taking?
    Mr. Kemkar. They have directed me accordingly.
    Mr. McClintock. So this is an authority over you that has 
directed you not to comply with a lawful congressional 
subpoena?
    Mr. Kemkar. Yes.
    Mr. McClintock. So your refusal, then, to comply with the 
subpoena is on the grounds that you were acting under the 
orders of a superior; is that correct?
    Mr. Kemkar. What I have said and will say again is that I 
have not been authorized to produce documents to the Committee 
because the Office of the Solicitor at the Department of the 
Interior has instructed me that I am not authorized.
    Mr. McClintock. Which is a superior to you.
    Mr. Kemkar. They are the Department's lawyers, and they 
have instructed me----
    Mr. McClintock. If they are the Department's lawyers, they 
are giving you advice; they are not directing you to take 
actions.
    Are you taking this action on your own authority, or has 
somebody in a superior position directed you to take it?
    Mr. Kemkar. The Solicitors at the Department of the 
Interior have instructed me that----
    Mr. McClintock. On whose authority, Mr. Kemkar, have you 
refused to comply with a lawful congressional subpoena?
    Mr. Kemkar. The Acting Principal Deputy Solicitor of the 
Department of the Interior, Mr. Jack Haugrud.
    Mr. McClintock. Who is your superior.
    You keep dancing around the question, Mr. Kemkar, and I am 
getting a little tired of it.
    Mr. Kemkar. Well, I----
    Mr. McClintock. Are you doing this on your own authority, 
or are you doing this on the Department's authority--because 
you have been directed by a superior?
    Mr. Kemkar. I have been directed by the Department, yes.
    Mr. McClintock. All right.
    Ms. Ishee, is that your response, as well?
    Ms. Ishee. I have not provided documents to the Committee 
because, yes, I have been instructed by the Department that I 
don't have authority to provide agency records.
    Mr. McClintock. Which is a superior over you.
    Ms. Ishee. Yes, sir.
    Mr. McClintock. So you are not taking this on your own 
authority but on the authority of a superior?
    Ms. Ishee. That is correct.
    Mr. McClintock. I am going to read to both of you a ruling 
by the Federal Court in United States v. Tobin. ``Noncompliance 
with a congressional subpoena by government officials may not 
be justified on the ground that they were acting under the 
orders of a superior.''
    You have both testified that that is the grounds for which 
you have refused to comply with the subpoena. Are you aware 
that your statements expose you to being held in contempt of 
the Congress?
    Mr. Kemkar?
    Mr. Kemkar. I was not aware of that, Congressman. And I 
would hope that----
    The Chairman. All right. Well, then, now that you aware of 
it, will you now produce those documents, yes or no?
    Mr. Kemkar. No, sir.
    Mr. McClintock. Ms. Ishee?
    Ms. Ishee. My understanding is that the documents requested 
by the Committee are agency records. They are not my records, 
sir. So I have been instructed that I am not authorized----
    Mr. McClintock. You have been subpoenaed to produce them. 
You have refused to produce them based on the directions of the 
superior. You have just been informed that the Federal courts 
have held that that is not grounds for refusal to comply.
    The question I have put to you is, will you now produce 
those documents? Yes or no?
    Ms. Ishee. I haven't read that decision, so I don't know 
the full parameters of----
    Mr. McClintock. Will you now produce those documents, yes 
or no?
    Ms. Ishee. But, no, I am not in a position to produce those 
documents.
    Mr. McClintock. Mr. Chairman, I believe the House should 
proceed to hold Mr. Kemkar and Ms. Ishee in contempt and to 
pursue what legal sanctions against them that are available to 
us.
    Mr. Lujan. Mr. Chairman?
    Mr. McClintock. That is not a motion; that is an opinion.
    Don't interrupt me, Mr. Lujan. I am acting on my time.
    Mr. Lujan. Mr. Chairman, point of clarification?
    Mr. McClintock. I am not yielding to Mr. Lujan.
    The Chairman. Would the gentleman yield?
    Mr. McClintock. No, I do not yield to Mr. Lujan.
    The Chairman. Will you yield to me?
    Mr. McClintock. Yes.
    The Chairman. As I mentioned in my opening statement, there 
is a great deal of frustration on the part of the Chairman and 
the majority of this Committee of not getting information from 
this Administration.
    And I also said in my opening statement that we will go to 
where we need to go in order to get the information that we are 
asking. And that certainly would be part of where that process 
would go, because that is given to us under the authority of 
the rules of the House. And I intend to go as far as we need in 
order to get that information.
    Mr. Lujan. Mr. Chairman?
    The Chairman. The time of the gentleman has expired.
    Does the gentleman have a point of order?
    Mr. Lujan. Yes, sir.
    The Chairman. Well, then state the point of order.
    Mr. Lujan.  Mr. Chairman, the reason that I was seeking to 
get the recognition of the Chair, I appreciate the scolding of 
my colleague, not to interrupt him, but his words were ``I 
move,'' Mr. Chairman. We can go back and check the transcripts.
    I was only seeking the Chair's recognition to object to the 
motion, which, under my understanding of the rules, would 
require unanimous consent. That is the only reason I was 
seeking that.
    Mr. McClintock. Mr. Chairman?
    The Chairman. I will let the gentleman from California 
respond.
    Mr. McClintock. The gentleman needs to listen more 
carefully. I did not say that I moved. I said, ``Mr. Chairman, 
I believe that this House should proceed,'' and I do.
    The Chairman. Clarification is made.
    Mr. Holt is recognized for 5 minutes. The gentleman from 
New Jersey, Mr. Holt? 
    Mr. Holt. May I defer?
    The Chairman. Of course you can. Forever?
    Mr. Holt. I pass.
    The Chairman. Forever?
    Mr. Holt. For the moment, Mr. Chairman. Thank you.
    The Chairman. For the moment.
    Mr. Lamborn is recognized for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman. And I am going to 
yield my time to a representative, a colleague on this 
Committee, who has been a watchdog on a very vital energy issue 
for the future of our country, Representative Johnson of Ohio.
    Mr. Johnson. I thank you, Mr. Lamborn, for yielding.
    Ms. Ishee, as you know, this Committee sent letters to the 
Department in February and April of 2011 requesting information 
about the rewrite of the stream buffer zone rule. It also 
issued subpoenas earlier this year, which the Department has 
not fully complied with.
    Given your role in coordinating OSM's search for documents, 
when you did you become aware that there were audio recordings 
of the meetings with the contractors?
    Ms. Ishee. Sir, I appreciate the question. I will say that 
I did not prepare, in advance of this hearing, for questions 
related to that topic. I will answer what I can, but I don't--
--
    Mr. Johnson. Well, in the notification for this hearing, 
ma'am, it was clear that we were going to be addressing the 
moratorium and other matters. And you were clearly involved in 
OSM, as the assistant to Director Pizarchik, so these questions 
are certainly germane to what we have here. So I would expect 
you to be prepared when you come before this Committee.
    So, again, when did you become aware that there were audio 
recordings of meetings with the contractors?
    Ms. Ishee. Again, sir, if I may, I am happy to answer your 
questions to the best of my ability. I came prepared 
specifically on the questions that were outlined----
    Mr. Johnson. You have a memory, Ms. Ishee. You have a 
memory. Are you aware that there are audio recordings of 
meetings with the contractors?
    Ms. Ishee. Yes, and I will----
    Mr. Johnson. OK. You are aware that there are audio 
recordings. Are you also aware that those audio recordings have 
not been provided to this Committee, as required by the 
subpoena?
    Ms. Ishee. I will say that I will be happy to answer 
questions. I don't remember----
    Mr. Johnson. Are you aware that----
    Mr. Lujan. Mr. Chairman?
    Mr. Johnson. How many of these recordings have been 
provided?
    Mr. Lujan. Mr. Chairman, a point of order?
    Mr. Johnson. I will not yield, Mr. Chairman.
    The Chairman. The gentleman states a point of order.
    State your point of order.
    Mr. Lujan. Mr. Chairman, ``Committee Oversight of the 
Department of the Interior: Questioning of Key Department of 
the Interior Officials'' pertaining to the spill in the Gulf is 
what this hearing is about, is it not?
    The Chairman. On the point, the title of this Committee 
hearing is ``Committee Oversight of Department of the Interior: 
Questioning of Key Department of the Interior Officials.'' That 
is what the title of this hearing is about.
    In the letter that was sent to Ms. Ishee and Mr. Kemkar, on 
the second page, the second full paragraph, it says, in 
preparing for your appearance, you should be prepared to answer 
questions and so forth. And it says ``other departmental 
matters of which you may have personal knowledge.''
    This falls into that category, the line of questioning that 
Mr. Johnson is asking. It falls in line and consistent with the 
request.
    Mr. Lujan. So, Mr. Chairman, any unrelated issues to the 
report is fair game? That is sufficient notice to the 
witnesses?
    The Chairman. Well, only when it is germane. And, in this 
particular case, Mr. Johnson's line of questioning to Ms. Ishee 
is germane because it is personal knowledge that they may have.
    Reset the time for Mr. Johnson. It was 2:45, so let's reset 
it to 2:45.
    Mr. Johnson is recognized.
    Mr. Johnson. Ms. Ishee, I have a copy of the email that you 
sent to the Department asking for those records to be 
collected. How many of these recordings have been collected? 
Dozens? Hundreds? Thousands? Any idea?
    Ms. Ishee. Sir, I don't----
    Mr. Johnson. You sent the email, and certainly they would 
be responding to you.
    Ms. Ishee. That is correct. And I will say I don't recall 
directly that specific email or what was contained in it. I----
    Mr. Johnson. Well, we can show it to you. It is up there on 
the screen, so you can see what was in it. It says, collect the 
records, all the records, as requested by Chairman Hastings.
    So how many documents have been collected? Any? Has your 
Department received any documents as a response to this email?
    Ms. Ishee. Sir, I do recall that we received documents. I 
don't recall how many.
    Mr. Johnson. Do you know if these documents are just 
sitting in a file somewhere collecting dust, or are they 
organized and prepared to be sent to this Committee?
    Ms. Ishee. The Department provides the records specifically 
to the Committees, sir, and I don't know the status of those. 
It has been several months since I stopped working with OSM, 
and I don't recall the status of those or know.
    Mr. Johnson. OK. Ms. Ishee, you have held a number of very 
interesting and varied jobs at the Department during the Obama 
Administration. First, you were a Deputy Director in the 
Minerals Management Service, where you were involved in 
developing the drilling moratorium report. After that, you 
moved to the Office of Surface Mining Reclamation and 
Enforcement, where you worked as Senior Advisor to Director 
Pizarchik.
    Since the start of the Obama Administration, OSM has been 
working to rewrite the stream buffer zone rule. And the 
Department even entered into a settlement agreement with 
environmental groups, promising to finalize a new rule in July 
of 2012. But months later, the rule still hasn't been proposed, 
let alone finalized.
    Mr. Pizarchik recently testified before the Committee that 
the Department was devoting significant resources to revising 
the stream buffer zone rule, but he did not know when it would 
be proposed or finalized.
    So do you know what the timing is for proposing this rule? 
Is it after the election in November?
    Ms. Ishee. I don't know what the time is. No, I don't.
    Mr. Johnson. OK. Do you know the status of the 
environmental impact statement and regulatory impact analysis 
that were nearly complete 1 year ago?
    Ms. Ishee. To the best of my understanding, that is still 
under consideration by the agency.
    Mr. Johnson. Do you know if OSM is still working on these 
activities today, on these documents today?
    Ms. Ishee. To the best of my knowledge, the agency 
continues to work on the issues.
    Mr. Johnson. I said the Office of Surface Mining and 
Reclamation. Are they working on this activity today?
    Ms. Ishee. Yes, sir, that is what I said, the agency. I am 
sorry, I meant the OSM. To the best of my understanding, they 
are continuing to work on that, yes.
    Mr. Johnson. OK. Is there an internal deadline for this 
work to be completed?
    Ms. Ishee. If there is, I don't know what that is. I don't 
know.
    The Chairman. Time of the gentleman has expired.
    Mr. Johnson. Mr. Chairman, I have additional questions, but 
I will yield back. I see my time has expired.
    The Chairman. Time has expired.
    Mr. Holt, are you ready?
    Mr. Holt. Yes, Mr. Chairman.
    The Chairman. You are recognized for 5 minutes.
    Mr. Holt. Thank you. I would like to talk a little bit 
about peer review.
    The OMB guidance to all departments and agencies entitled, 
``Final Information Quality Bulletin for Peer Review,'' states 
that, quote, ``To the extent permitted by law, each agency 
shall conduct a peer review on all influential scientific 
information that the agency intends to disseminate. Peer 
reviewers shall be charged with reviewing scientific and 
technical matters, leaving policy determinations for the 
agency,'' end quote.
    I trust that everyone involved in reports from the 
Department of the Interior is familiar with that OMB guidance. 
Are you familiar with that OMB guidance, let me ask both of 
you.
    Ms. Ishee. I am not personally familiar with it, although 
it sounds familiar. But I don't personally know the contents.
    Mr. Holt. Well, my question--yes, sir?
    Mr. Kemkar. The same.
    Mr. Holt. Yes. My question for you is this: Was it the 
Department of the Interior's understanding that the peer 
reviewers were reviewing scientific and technical matters for 
this report?
    Mr. Kemkar. I can speak to that. Yes.
    Ms. Ishee. That was my understanding.
    Mr. Holt. Thank you.
    To your knowledge, did anyone at Interior ever tell the 
peer reviewers that they would be signing off on or have veto 
authority over the Department's policy decisions?
    Mr. Kemkar. No.
    Ms. Ishee. To the best of my understanding, no.
    Mr. Holt. OK. So, as you understand it, it was not the job 
of the peer reviewers to sign off on the Secretary's policy 
recommendations for a 6-month moratorium recommendation, was 
it?
    Mr. Kemkar. It wasn't. That is correct.
    Mr. Holt. It was not.
    Now, typically, just because something is peer-reviewed 
doesn't mean that the peer reviewers support all of the 
conclusions. Peer review is done, as we have just established, 
for technical and scientific accuracy and integrity. This is 
consistent with the OMB guidance.
    The Executive Summary concludes with the line, quote, ``The 
recommendations in this report were peer-reviewed by seven 
experts identified by the National Academy of Engineering,'' 
end quote.
    Some of the peer reviewers seem to have read that statement 
and the words ``peer-reviewed'' to mean ``supported.'' They 
thought the text was saying that they supported everything in 
the report and Executive Summary.
    If they interpreted these words, ``peer-reviewed,'' to mean 
supported in full by the expert panel, was that, according to 
your understanding, a correct interpretation of the statement?
    Mr. Kemkar. I can speak to that.
    No. According to my understanding of the situation, as you 
have stated, the peer reviewers were explicitly asked to review 
that on which they were expert, the technical safety 
recommendations, and only that.
    Mr. Holt. All right. Further on this subject, why did the 
Interior Department seek the assistance of peer reviewers in 
preparing this report? This is maybe a little bit repetitive, 
but I do want to establish this.
    Mr. Kemkar. Sure. Well, let me take the opportunity to 
bring us back to May of 2010, it was a crisis moment, a very 
important set of recommendations in a very compressed period of 
time, and----
    Mr. Holt. I am looking for, actually, a shorter answer. Why 
do you have peer reviewers?
    Mr. Kemkar. Oh. Well, frankly, just to make sure that those 
recommendations are as sound as they can be, to make sure that 
offshore oil and gas drilling is done as safely as possible in 
the future.
    Mr. Holt. And how did the Department find these peer 
reviewers?
    Mr. Kemkar. The Department reached out to the National 
Academies of Science, and Dr. Peter Blair sort of canvassed the 
field of experts and suggested these seven.
    Mr. Holt. OK. And the Academy of Engineering.
    Mr. Kemkar. Yes, the Academy of Engineering specifically.
    Mr. Holt. Mr. Kemkar, were you the primary contact for the 
peer reviewers?
    Mr. Kemkar. I was one of them, sir, yes.
    Mr. Holt. One of them. OK.
    Can you describe the relationship between the Department 
and the peer reviewers? Was it a good working relationship?
    Mr. Kemkar. In my view, it was a fantastic working 
relationship. These were dedicated men working as volunteers in 
an area in which very few people in the country were expert. 
And we had a great relationship.
    Mr. Holt. And leading up to the final report, the reviewers 
praised the work that----
    Mr. Kemkar. Yes.
    Mr. Holt [continuing]. Was in this report, I believe.
    Mr. Kemkar. Memorably, one of them, who was a professor at 
his day job, said, ``This is excellent work. A-plus on this 
report.''
    Mr. Holt. OK. When the Department heard that there were 
some complaints from reviewers, Secretary Salazar immediately 
sent public letters to the reviewers making clear that the 
moratorium recommendation was his, not theirs; is that correct?
    Mr. Kemkar. That is correct.
    Mr. Holt. And who decided to send that letter?
    Mr. Kemkar. That letter went out under Deputy Secretary 
Hayes's signature.
    Mr. Holt. OK. And was there support within the Department 
for sending those letters, that public letter?
    Mr. Kemkar. To the best of my knowledge, yes, sir.
    Mr. Holt. Thank you.
    The Chairman. The time of the gentleman has expired.
    The Chair recognizes the gentleman from Pennsylvania, Mr. 
Thompson.
    Mr. Thompson. Thank you, Mr. Chairman.
    And thank you to the witnesses.
    Mr. Kemkar, the IG interviewed you in July 2010. And, 
according to the IG's interview summary, you said you did not 
know who drafted the Executive Summary, just that it was the 
result of a lot of back-and-forth between the Department and 
the White House staff, such as Joe Aldy, but that you did the 
final review of the White House edits that contained the 
inaccurate peer-review language. Is that accurate?
    Mr. Kemkar. Yes. I told the interviewers from the Inspector 
General's Office----
    Mr. Thompson. Do you feel any responsibility for causing 
the confusion about the moratorium and whether the peer 
reviewers supported it?
    Mr. Kemkar. Sir, as I read that document, I did not read it 
the way that the peer reviewers did. The language in the report 
itself, the text of it says, ``the recommendations contained in 
this report.'' I wasn't really familiar with the report and----
    Mr. Thompson. So your answer is, no, you don't feel any 
responsibility for causing any of the confusion.
    Mr. Kemkar. Sitting here today, I, of course, can see how 
they have made themselves clear on how they see it. When I read 
it at that time, I didn't see it that way.
    Mr. Thompson. So your answer is you think it might be 
possible that----
    Mr. Kemkar. I am sorry?
    Mr. Thompson. So your answer is you think it might be 
possible that you helped to create the confusion.
    Mr. Kemkar. No, sir. What I am saying is, at that time, I 
didn't read it that way.
    Mr. Thompson. OK.
    Mr. Kemkar. Sitting here today, after seeing the way the 
NAE experts reacted, I can see what they are saying.
    Mr. Thompson. Well, you certainly have me confused.
    Now, given your involvement in preparing the drilling 
moratorium report and given your awareness of Mary Kendall's 
involvement, you are in a unique position to assist the IG's 
investigation.
    What was your reaction to learning that the IG was 
conducting an investigation, given your awareness of Mary 
Kendall's participation in meetings and access to the drafts 
leading up to the final report?
    Mr. Kemkar. I was contacted by representatives from the 
Office of the Inspector General, who informed me that they were 
conducting an investigation, asked for an interview, which I 
granted with two agents, I think Agent Humbert and another 
agent.
    Mr. Thompson. During that interview, did you discuss Mary 
Kendall's participation with the IG investigators?
    Mr. Kemkar. I am sorry, Mary Kendall's participation in 
what, sir?
    Mr. Thompson. Participation in the meetings and access to 
the drafts leading up to the final report.
    Mr. Kemkar. No.
    Mr. Thompson. Do you think Ms. Kendall should have recused 
her office from investigating?
    Mr. Kemkar. I have no opinion on that.
    Mr. Thompson. OK. Did you have any discussions with Steve 
Black or anyone else about their interviews with the IG's 
investigators?
    Mr. Kemkar. The way it happened is, they asked me for an 
interview, and I granted it, and I spoke to them directly.
    Mr. Thompson. All right. Now, according to the IG interview 
summary, you discussed having email exchanges with White House 
officials on Carol Browner's staff discussing the edits in the 
draft report. Did you discuss providing these documents to the 
IG?
    Mr. Kemkar. They did not request the documents.
    Mr. Thompson. So the IG never requested the documents. Did 
you offer them?
    Mr. Kemkar. Yes. I said I had the documents and yes, I did.
    Mr. Thompson. Would these documents or others have 
corroborated your statements to the IG that the edits were not 
intentional?
    Mr. Kemkar. Yes.
    Mr. Thompson. And were there any communications with anyone 
else outside of the Department discussing the moratorium or 
edits to the report, including OMB? And did you or anyone else 
receive edits from OMB?
    Mr. Kemkar. I am sorry--oh, just to the last question, I 
believe the Department did receive edits from OMB, yes.
    Mr. Thompson. I understand that you have been on detail 
from the Department to the White House, serving as a climate 
change policy expert, and you played a central role in 
developing the drilling report.
    Were you at the Department or at the White House at the 
time of the Committee's April 2011 request?
    Mr. Kemkar. It would depend on the date of the request. I 
began my detail in May. Actually, I began my detail in May 
2011. So I guess I was still at the Department.
    Mr. Thompson. So you would have been there. Or you----
    Mr. Kemkar. I would have been at the Department in April of 
2011----
    Mr. Thompson. OK. Great.
    Mr. Kemkar.--on detail in May of 2011.
    Mr. Thompson. Thanks for the clarification.
    Mr. Kemkar. Sure.
    Mr. Thompson. When were you made aware of the Committee's 
April 2011 document request?
    Mr. Kemkar. I can't say with any certainty, but within 
weeks after the request, probably.
    Mr. Thompson. Were you ever asked to search for or collect 
documents for this investigation, or did the Department somehow 
collect them in your absence?
    Mr. Kemkar. I have not been involved in the document 
production for this request.
    Mr. Thompson. And did you ever take notes at any meetings 
where the drilling report or the moratorium was discussed?
    Mr. Kemkar. The Department has access to all my records.
    Mr. Thompson. OK. Were these identified in the search, your 
notes?
    Mr. Kemkar. Again, I have not been involved with the 
document production request. I am here as a fact witness today. 
So I really couldn't speak to what has been identified and what 
hasn't.
    Mr. Thompson. And just briefly, finally, have you ever 
deleted any emails or other documents concerning the moratorium 
or the drilling report?
    Mr. Kemkar. No.
    Mr. Thompson. OK.
    Thank you, Mr. Chairman.
    The Chairman. The time of the gentleman has expired.
    The Chair recognizes the gentleman from Michigan, Mr. 
Kildee.
    Mr. Kildee. Thank you, Mr. Chairman.
    Ms. Ishee, at the time of the Deepwater Horizon explosion, 
you were Deputy Director of the Minerals Management Service. 
Can you tell us about the state of offshore drilling safety at 
the time of the spill and why the report recommended new 
safeguards?
    Ms. Ishee. Well, as I think many of you know, the explosion 
had occurred on the Deepwater Horizon, and the Macondo well was 
spilling into the Gulf. So, at that time, there was a 
tremendous amount of attention focused on containing that 
spill, which had not been contained, certainly, at the time we 
were working on the report. And I do know that the MMS staff 
and Department staff were very, very concerned about addressing 
that spill, a spill of national significance which was, at that 
time, soiling coastlines and coating seabirds and having a 
tremendous negative impact on both the fisheries industries, 
the commercial recreational industries.
    And I do know that in our conversations, or those that I 
was aware of, with industry, they were equally concerned that 
the cause of this be identified and that additional measures be 
put in place to make sure that accidents like this did not 
happen again.
    Mr. Kildee. And for both witnesses, can you tell us what 
happened after the report was issued to implement its 
recommendations?
    Ms. Ishee. Well, I can sort of answer that.
    The Department moved forward to implement these 
recommendations in a number of regulatory actions. They had an 
interim final safety drilling rule, which has now been 
finalized.
    They also issued a rule on safety environmental management 
systems, which contains regulations for organizational 
management so that everybody on board a rig understands what to 
do in case of an emergency. That rule has also been finalized, 
and I believe the Department has proposed another version of 
that.
    The Department has also issued an NTL, notice to lessees 
and operators, with some of the provisions from the 
recommendation.
    So my understanding is that the Department has moved 
forward to successfully implement the recommendations in the 
report and that industry is working very hard to make sure they 
are complying with those.
    Mr. Kildee. Isn't it true that a number of recommendations 
for various rulemakings and safeguards are still being 
developed?
    Ms. Ishee. I believe the Department is working with a 
number of groups to continue to look very closely at what 
additional measures, if any, ought to be taken, including 
working closely with industry organizations to examine future 
actions.
    The Department is also taking the high number of 
recommendations that have come in from the many studies and 
commissions that were put in place after the Deepwater Horizon, 
and they are working very hard to implement those 
recommendations, as well.
    Mr. Kildee. OK. My final question, is deepwater drilling 
safer today, and will it be even safer in the future, because 
of the report and the adoption of the recommendations?
    Ms. Ishee. I think there is very substantial agreement, 
both within the Department and throughout the industry, that, 
yes, the industry is safer now on the basis of these 
recommendations and their implementation and other measures 
that have been examined and implemented since the Macondo 
spill; that, yes, the industry is safer in the Gulf of Mexico 
and anywhere offshore the United States than it was before this 
spill, yes, sir.
    Mr. Kildee. Thank you. And I thank you for your work. Thank 
you very much.
    Thank you, Mr. Chairman.
    Mr. Lujan. If the gentleman would yield?
    Mr. Kildee. I would be happy to yield.
    Mr. Lujan. Mr. Kildee, thank you so much.
    I guess for the media in the room today, breaking news, the 
word ``pause'' and ``moratorium'' have been interchanged. That 
is why we are here.
    And if we could just take a minute to go back to try to 
remember what Secretary Salazar and the United States of 
America were going through at the time that this moratorium was 
put in place. People died, again.
    The companies that were responsible for this spill had 
issued a plan and gave assurances that they could stop the oil 
from spilling. We know that wasn't true.
    At the same time, something else happened in America, let 
us not forget, as well, that they were trying to push landfill 
waste as part of one of their solutions to plug this hole. That 
didn't seem to work either.
    But something else happened in America about the same time. 
Toyota had a recall, a pause, a moratorium, because their 
pedals were stuck. And at the time that these articles were 
written, at least 34 people's deaths were attributed to this 
pause, to this temporary stopping of production and sales in 
this area.
    You know, let me just read again. ``Moratorium,'' 
definition: a suspension of action. When we look at ``pause'': 
to stop temporarily and remain.
    I mean, Mr. Chairman, there has to be a way for us to go 
back and remember again what happened here. And I appreciate 
the commitment here to get to the bottom of this, but I think 
that we would concur that the words----
    The Chairman. The time----
    Mr. Lujan [continuing]. Have been interchanged.
    The Chairman. The time of the gentleman has expired.
    The Chair recognizes the gentleman from Virginia, Mr. 
Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    I would like to yield my time to the gentleman from 
Louisiana, Mr. Landry.
    Mr. Landry. Thank you, Mr. Wittman.
    For the media, breaking news, OK, breaking news. Mr. Lujan 
has just given us a great example of why this moratorium was 
unnecessary. Because not all wells drilled in the Gulf of 
Mexico are exactly the same, just like all cars built by 
different manufacturers are not the same. You see? And so what 
he has done is given us a great example that if the 
Administration had listened to the scientific community and to 
the experts, that the moratorium was unnecessary.
    The reason we are here is to show the American people that 
its government hurt them in the pocketbook, and that this 
Administration had the ability to take a pause, like Toyota 
did, and said, ``BP, you have to stop drilling. But, Shell, you 
drill differently than BP and you can keep doing it.''
    You see, that is the smoke and mirrors that occur here on 
this Hill that those people who are watching, those children in 
their civics lessons, they can't discern, they don't 
understand. They don't understand why this government is so 
dysfunctional.
    Now----
    Mr. Lujan. Would the gentleman yield?
    Mr. Landry. The gentleman will not yield, since you 
wouldn't yield to some of my colleagues.
    However, here is what I want the two of you to understand. 
There are some jobs that are inherently dangerous in this 
country. Wouldn't you both agree with that, OK. There are jobs 
that are inherently dangerous, that regardless of how much the 
government believes that it can mother-hen over, they are going 
to be inherently dangerous.
    We understand that in Louisiana and in the Gulf of Mexico. 
Because the same people who lost loved ones in the Gulf of 
Mexico--and we should never forget those tragic 11 lives that 
were lost; it was a tragic event--they came here to this very 
Hill to plead with the Administration not to implement this 
moratorium because of the devastating effect it would have on 
families in and around the Gulf Coast.
    My district was ground zero for both the oil spill and the 
effects of this moratorium.
    I appreciate what all you guys are doing, OK? Your 
superiors are throwing you completely under the bus. All right? 
That is not how the system is supposed to work, guys. You 
should be answering these questions based upon the information 
that you have, and not taking directives to protect people who 
don't deserve that protection.
    Now, Ms. Ishee, are you aware of any discussions or 
documents where Secretary Salazar, David Hayes, or Steven 
Black, or anyone else at the White House expressed concern that 
the moratorium could result in a loss of jobs and greater 
economic harm to the region?
    Ms. Ishee. I don't recall. I don't recall. I don't recall 
that prior to the issuance of the findings of the 30-day 
report, I don't recall being involved in discussions or 
communications specifically related to a decision as to whether 
to impose a moratorium----
    Mr. Landry. So at any time when they discussed a 
moratorium, was economic harm or job loss ever raised?
    Ms. Ishee. It was not raised to me prior to finalization of 
the 30-day report, I don't believe.
    Mr. Landry. Mr. Kemkar?
    Mr. Kemkar. Congressman, I wasn't involved in the policy 
decision relative to the moratorium.
    Mr. Landry. No, no, no. I am not asking if you were 
involved in the policy decisions. I am asking you if you ever 
heard anyone, during the time that you were involved in any of 
these discussions, talk about economic harm or job loss. Yes or 
no?
    Mr. Kemkar. No.
    Mr. Landry. Thank you.
    Ms. Ishee, are you aware or did anyone recommend not moving 
forward because of economic harm?
    Ms. Ishee. Are you speaking about the moratorium, sir?
    Mr. Landry. About the moratorium, right.
    Ms. Ishee. Again, I don't recall being involved in 
discussions, myself, personally, about inserting that decision 
into the report. I don't know what discussions they may or may 
not have had.
    Mr. Landry. Do you think they just didn't care about it, 
the economic impact?
    Ms. Ishee. Do I think that? No, I don't think that they 
didn't care.
    Mr. Landry. OK. Mr. Chairman?
    The Chairman. The time of the gentleman has expired.
    The Chair recognizes the gentleman from New York, Mr. 
Tonko.
    Mr. Tonko. Thank you, Mr. Chairman.
    The majority has insinuated that Administration officials 
intentionally misrepresented the views of the report's peer 
reviewers for political cover. Yet, the press release 
announcing the report makes no mention of the peer reviewers. 
Rather, it says the recommendation for a 6-month moratorium 
came from Secretary Salazar.
    For both witnesses, if you would please respond. Was there 
ever any talk about needing political cover for the 6-month 
moratorium recommendation?
    Ms. Ishee. I never heard any such----
    Mr. Kemkar. Neither did I, sir.
    Mr. Tonko. So the answer from both of you is ``No.''
    Was there any attempt to publicly claim that the peer 
reviewers supported the 6-month moratorium?
    Mr. Kemkar. No, not that I am aware of. As you indicated, 
the press release did not mention them. And the cover letter 
that was attached to the top of this report explicitly said 
that this was a recommendation by the Secretary.
    Mr. Tonko. So you both stand by ``no'' as an answer?
    Ms. Ishee. That is correct.
    Mr. Tonko. Thank you. The Administration did not need, nor 
did it seek, political cover for the moratorium. Eleven men 
were dead, and oil was gushing into the Gulf. A 6-month timeout 
was a minimal response.
    In contrast, the House Republicans are in desperate need of 
political cover. These years of oil-industry boosterism based 
on faulty promises of safety and environmental responsibility 
are, indeed, an embarrassment. This investigation is an attempt 
to change the subject.
    So I say to the majority, congratulations, you have 
revealed the plan to create political cover for misguided and 
misinformed policy. Of course, it turns out that plan is yours 
and not the Administration's.
    For both of you witnesses, can you please take us back to 
April 2010, BP's Deepwater Horizon well has exploded. Nearly 
60,000 barrels of oil are pouring into the Gulf each day. What 
is happening at the Interior Department at that time, and what 
prompts the move to work on this 30-day report?
    Mr. Kemkar. I can start, and then I will turn it over to 
Ms. Ishee.
    At that time, as you have suggested, there is oil gushing 
into the Gulf. It is not clear when or even if the spill will 
be capped. The President has directed the Secretary to look at, 
even before any of the root-cause investigations are done, to 
look at what immediate measures, interim measures, can be 
taken. It is an all-hands-on-deck approach through a number of 
people at the Department and, frankly, across the 
Administration to really respond to this national crisis.
    This one report was just a small part of this all-hands-on-
deck effort and folks working as many hours as they could in 
the day to respond to this national crisis. That is my 
recollection.
    Mr. Tonko. Ms. Ishee?
    Ms. Ishee. Yes, that is correct with my recollection, as 
well, that, at the time, there was, as I said in my statement I 
think, there was intense scrutiny from around the world on this 
spill. This was the largest spill that had ever occurred in the 
United States, possibly offshore, at all. And there was intense 
media interest, both domestic and international, as I have 
said. Of course, Members of Congress had tremendous interest in 
this.
    Within the Federal Government, the agency was getting a 
number of requests, frankly, overwhelming, to a large extent, 
for briefings, for information papers, for documents, for 
background information, for updates on what was going on at the 
time. So we were definitely in, being a small agency, 
definitely in a very crisis-response sort of mode and working 
literally 12-, 14-, 16-, 18-hour days around the clock, trying 
to respond as responsibly as we could to the multiple demands 
made on staff, on resources and departmental resources. And the 
30-day report, as Mr. Kemkar said, was a part of that effort.
    Mr. Tonko. Thank you, to each of you. I want to thank both 
of our witnesses for their service to our country. There was a 
crisis, and you stepped up, the Department stepped up. You 
deserve our gratitude, certainly not the questions you are 
getting at this hearing.
    I want to add additional context to this discussion. There 
was a transmittal letter from Secretary Salazar to the 
President that accompanied the 30-day report. This one-page 
letter included the following paragraph, and I quote: ``In 
addition to approving the important recommendations in this 
report, I also recommend that you impose a moratorium on all 
oil and gas drilling activity from floating rigs for 6 months. 
A moratorium would enable the Department to develop additional 
details regarding several of the recommendations, while also 
providing the Presidential commission with an opportunity to 
comment upon and potentially adjust the recommendations as part 
of the comprehensive review.''
    This paragraph clearly distinguishes the moratorium 
recommendation from the other peer-reviewed technical 
recommendations. It recommends the moratorium as complementary 
to the peer-reviewed technical recommendations, and not part of 
those recommendations.
    Would both of our witnesses agree with that assessment?
    Mr. Kemkar. I would.
    Ms. Ishee. Yes, sir.
    Mr. Tonko. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. The time of the gentleman has expired.
    The Chair recognizes the gentleman from South Carolina, Mr. 
Duncan.
    Mr. Duncan of South Carolina. Thank you, Mr. Chairman.
    You know, I am amazed at the level of arrogance that we 
witness from this Administration and the levels of obstruction 
we have witnessed, not just with this agency, but agencies of 
this Administration to CYA--the failure to admit that a lot of 
decisions are made for political reasons.
    I looked at the White House website. In the section on 
transparency and open government, it says this in the first 
line: ``My Administration,'' the Obama Administration, ``is 
committed to creating an unprecedented level of openness in 
government.'' But yet, we are not going to get the documents 
that a congressional subpoena requires.
    So if this is an unprecedented level of openness in 
government--it is unprecedented. It is unprecedented in the 
wrong way, though, because there is no openness in government.
    And I want to remind the Administration that, as much as 
they wanted to strike a blow at big oil--and they did--in the 
Gulf of Mexico with this moratorium, let us not forget that it 
wasn't just big oil that felt the effects of this. This was 
tens of thousands of families that were dramatically affected 
in their livelihoods, their ability to produce an income, 
having to move and seek jobs in other parts of the country.
    And so, with that, Mr. Chairman, I will yield the balance 
of my time to Mr. Landry.
    Mr. Landry. Thank you, Mr. Duncan. Thank you for always 
working to help those people down on the Gulf Coast to get some 
of those jobs back.
    Ms. Ishee, I just want to continue on for a minute. Do you 
believe that it was always or were you ever part of or heard of 
any discussions or know of any emails whereby an extended 
moratorium was discussed prior to receiving the peer-review 
report? In other words, before the National Academy of Sciences 
had issued a report, that the White House or the Secretary's 
Office had already been discussing a 6-month moratorium?
    Ms. Ishee. I am sorry, when you say ``the National Academy 
of Sciences had issued a report,'' which report do you mean?
    Mr. Landry. Well, before they had even commented, before 
they had gotten any peer comments, before there were any 
outside or third-party discussions, or before they were brought 
into the discussion, just within the White House or the 
Interior Department, were they discussing a 6-month moratorium?
    Ms. Ishee. I don't know. I was not involved in any such 
discussions.
    Mr. Landry. And you know of no emails that may have gone 
back and forth whereby they may have discussed a 6-month 
moratorium prior to getting any independent advice?
    Ms. Ishee. I will say there were many discussions going on. 
So, to the best of my recollection, I was not personally 
involved in discussions, prior to the issuance of the 30-day 
report, of the imposition of a moratorium. I don't recall 
being----
    Mr. Landry. Mr. Kemkar?
    Mr. Kemkar. Likewise, sir. To the best of my recollection, 
I was not involved in any of the policy decisions to institute 
a moratorium, I only focused on preparing the report itself.
    Mr. Landry. OK, thank you.
    Mr. Chairman, I would like to yield my time to Mr. Johnson.
    Mr. Duncan of South Carolina. Mr. Chairman, I yield back 
the balance of my time to Mr. Johnson.
    Mr. Johnson. I thank the gentleman for yielding.
    Ms. Ishee, we were on the subject earlier of the stream 
buffer zone rule and the settlement that had been reached. Are 
you aware of any discussions with the litigants to give them an 
update?
    Ms. Ishee. I don't know what discussions are currently 
happening, as, again, I don't have a clear recollection of 
matters from that time period, as I haven't refreshed my 
recollection on any of that. But I don't know what discussions 
might be going on currently.
    Mr. Johnson. Are you aware of any discussions with OMB or 
the White House on the status or the timing of this rule?
    Ms. Ishee. I don't know what discussions may or may not be 
occurring on the timing or the status of the rule.
    Mr. Johnson. Have you received or seen any emails regarding 
a new deadline for proposing the stream protection rule?
    Ms. Ishee. Again, sir, I am not currently working on that 
matter directly, and I don't know what----
    Mr. Johnson. Before you left?
    Ms. Ishee. Before I left, I don't recall what--I----
    Mr. Johnson. If there has been no communication, then do 
you have any idea why the litigants have not complained? Do you 
have an opinion about why the litigants have not complained 
about the delay in meeting the settlement agreement deadline?
    Ms. Ishee. I don't know the mindset of the litigants, no, 
sir.
    The Chairman. The gentleman's time has expired, but he has 
his own time, so I recognize him for 5 minutes.
    Mr. Lujan. Mr. Chairman, a point of order?
    The Chairman. Point of order.
    Mr. Lujan. Mr. Chairman, the minority strenuously objects 
to your allowing Mr. Johnson to proceed with the line of 
questioning unrelated to the topic the witnesses were----
    The Chairman. That is not a point of order.
    The gentleman from Ohio is recognized.
    Mr. Johnson. Thank you, Mr. Chairman.
    Is there an understanding in place with these environmental 
groups that the rule cannot be issued until the political winds 
are more favorable? Are you familiar with anything about that?
    Ms. Ishee. I am sorry, sir. Again, could you repeat your 
question? I apologize.
    Mr. Johnson. Sure. I said, are you aware, is there any 
understanding in place with these litigants, the groups that 
filed the settlement case that was settled in the first place, 
that the rule cannot be issued until the political winds are 
more favorable?
    Mr. Lujan. Mr. Chairman, point of order. And my point of 
order is----
    The Chairman. The gentleman is recognized for his point of 
order.
    Mr. Lujan. Mr. Chairman, my point of order is based on what 
I believe to be a violation of Committee rules. If I could 
state my point of order, Mr. Chairman?
    The Chairman. State your point of order.
    Mr. Lujan. Again, Mr. Chairman, the minority strenuously 
objects to your allowing Mr. Johnson to proceed with the line 
of questioning to the topic witnesses were invited here to 
testify about.
    Committee Rule 3(d) clearly states that a Member shall 
limit his remarks to the subject matter under consideration. 
The Chairman shall enforce the proceeding provision. It is not 
sufficient for the Chairman to state that the invitation to the 
witnesses asked them to be prepared to answer questions about, 
and I quote from the letter that was submitted on August 30th 
to Mr. Neal Kemkar and Ms. Katherine Ishee, ``other Department 
matters of which they may have personal knowledge.''
    Both the Committee's subpoenas to these witnesses and the 
letters you have sent to them very clearly are focused on the 
editing of the report on the 30-day moratorium. To allow a line 
of questioning to proceed on an unrelated rulemaking is unfair 
to the witnesses as an inclusion and a deceptive, underhanded 
tactic that is beneath the dignity of this Committee.
    In the future, I would ask that the Chair keep the hearing 
focused on the specific issues that the witnesses have been 
asked to appear for, Mr. Chairman. And, again, the letter, I 
think this is very clear. The first paragraph includes the Gulf 
of Mexico drilling moratorium, and the fifth paragraph, the 
second full paragraph on page 2, includes an adequate 
description of what the witnesses were prepared for.
    The Chairman. The Chair will rule on your point of order.
    Again, the agenda for today's meeting is the ``Committee 
Oversight of Department of the Interior: Questioning of Key 
Department of the Interior Officials.'' That is what the title 
of this hearing is, and his line of questioning is consistent 
with that.
    The second point is in the letter, ``other departmental 
matters of which you may have personal knowledge.'' Again, Mr. 
Johnson's line of questioning falls within that realm.
    So your point of order is not well-taken, and----
    Mr. Lujan. Mr. Chairman, if I may, though, the paragraph 5, 
second full paragraph on page 2 of the letter, I will quote: 
``In preparing for your appearance, you should be prepared to 
answer questions on: number one,'' which is bulleted, ``your 
roles in assisting with developing, reviewing, and editing the 
drilling moratorium report; number two, how the moratorium 
decision was made without any technical or scientific analysis; 
number three, whether the peer-review language in the drilling 
moratorium report was intentionally misrepresented to justify 
the economically devastating moratorium decision; and, number 
four, the activities of the Office of Inspector General and 
other departmental matters of which you may have personal 
knowledge.''
    I think that it was specific and I think that the letter 
was well-written, Mr. Chairman. The majority staff did a 
phenomenal job with laying out their argument associated with 
why the witnesses should be here today. And that is all that I 
am asking, Mr. Chairman, so I appreciate your----
    The Chairman. And I appreciate the gentleman saying that, 
but in the Chair's interpretation, because of the title of the 
hearing, information from Department of the Interior, and with 
that phrase, which you read, after four, that it is consistent 
with the line of questioning of Mr. Johnson.
    Mr. Lujan. Thank you for the consideration, Mr. Chairman.
    The Chairman. The gentleman from Ohio is recognized.
    Mr. Johnson. Thank you, Mr. Chairman.
    Ms. Ishee, only days after coming into office, the Obama 
Administration decided to scrap the 2008 rule and tried to 
replace it without following notice and comment rulemaking 
requirements.
    This just seems to have been the start of the Department's 
rushed and sloppy efforts to rewrite the rule in coordination 
with environmental groups who had sued and settled with the 
government, as opposed to taking time to see whether the 2008 
rule would work and to involve the States and regulated 
community who would be impacted by the rule change.
    Why did the Administration rush to rewrite the rule rather 
than wait for the rule to be implemented, the 2008 rule to be 
implemented, to see whether it would work or not?
    Ms. Ishee. Congressman, I appreciate your questions and 
your line of questions, but I will say I do know that the 
Director was here to testify, and I believe the Director was 
able to answer questions more specifically on that topic.
    Mr. Johnson. No, I am asking you. I am not asking the 
Director; I am asking you. You were the Executive Assistant to 
the Director, so I am asking you.
    Ms. Ishee. I am sorry, sir, what was your question 
specifically?
    Mr. Johnson. Why did the Administration rush on rewrite the 
rule rather than wait for the rule to be implemented to see 
whether it worked?
    Ms. Ishee. I don't have specific recollections of those 
matters, but, again, if the Congressman would like specific 
answers and I would have the opportunity to refresh my 
recollection, I would be happy to work with the Department to 
get you answers back in writing.
    Mr. Johnson. OK, that would be great. What role has OSM's 
hasty and fumbling attempts to rewrite the rule had in causing 
regulatory uncertainty in States and in the mining industry, 
resulting in job loss and decreased coal production?
    Ms. Ishee. Again, I am sorry, sir, the specific question 
is?
    Mr. Johnson. What role has OSM's hasty and fumbling 
attempts to rewrite the rule had in causing regulatory 
uncertainty in States and in the mining industry, resulting in 
job loss and decreased coal production?
    Ms. Ishee. I don't believe the agency has proposed a rule 
yet, sir. So I don't know what impacts a rule that hasn't----
    Mr. Johnson. No, I didn't say the proposed rule. I said the 
attempts to rewrite the rule, the uncertainty that has been 
created as a result of their attempt to rewrite the rule. Do 
you have an opinion on how that uncertainty has caused the 
States and the mining industry problems in terms of job loss 
and decreased coal production?
    Ms. Ishee. I mean, just as a general topic, I would say 
that agencies work on proposed rules all the time. I am not 
aware of any particular----
    Mr. Johnson. Let's move into something more specific, then. 
How did you respond to complaints from States that OSM did not 
give them sufficient time to review or provide a meaningful 
opportunity to comment on a draft environmental impact 
statement in support of the rule change?
    Ms. Ishee. Again, I hesitate to give answers when I haven't 
refreshed my recollection because I have not done that in 
preparation for this hearing.
    Mr. Johnson. Well, let's go to Exhibit 1, if we could. 
There is an email to you that you were clearly identified on 
that says--if I am not mistaken, it says, ``This letter is on 
the way from WGA.'' Hopefully that will help your memory some.
    Ms. Ishee. With great apologies, I actually cannot read 
that from here, so I can't tell. I will rely on what I can hear 
from you, sir.
    Mr. Johnson. OK, well, I can read it for you. What is 
circled in red up there is your name in the ``to'' line. And 
what it says is, ``FYI, this letter is on the way from WGA.''
    So you received the letter from the States, from the 
Western Governors' Association, saying that they were concerned 
about the time that they were given, or lack of time that they 
were given, to comment.
    Ms. Ishee. And I am sorry, can you tell me who the email is 
from and to?
    Mr. Johnson. Yes. The letter is from Gail Adams on February 
28, 2011, and it is to Mary Katherine Ishee. That is you, 
right?
    Ms. Ishee. Yes, sir.
    Mr. Johnson. OK. ``FYI, this letter is on the way from 
WGA.'' And it accompanies, and has an attachment, the Western 
Governors' Association letter to Secretary Salazar in which 
they talk about their concerns over the amount of time that 
they had to provide meaningful comments on the draft 
environmental statement.
    So what response--how did you respond to receiving that 
email and that letter?
    Ms. Ishee. I can say, in general, responses within the 
agency would have been for the--letters would come into the 
agency, and there would be program responses to allow them to 
understand what the facts were, and then that would be drafted.
    Mr. Johnson. Well, Mr. Chairman, I yield back.
    I will say that the people in my district in the State of 
Ohio are still outraged at this Administration's attack on the 
coal industry. And it is unfortunate that we are simply not 
getting answers from the Administration on this issue.
    The Chairman. I appreciate the gentleman's remarks.
    And I have purposely tried to be a little bit flexible on 
the time on both sides because I think this issue and the other 
issues that we are talking about is very important.
    Let me just make an observation, as we conclude this 
hearing. In testimony of what we have heard, this has always 
been characterized as just a mistake or a misunderstanding. But 
when you have such an immediate response by the peer reviewers 
and I acknowledge, the peer reviewers said that the work was 
good; they felt that they were part of the process. Mr. Kemkar 
testified to that extent.
    But when you have such a firestorm afterwards, where they 
say the placement--and, frankly, I don't know how anybody, 
although you testified otherwise, I don't know how anybody can 
say that this was peer-reviewed, would come to any other 
conclusion than the peer reviewers.
    So the issue, then, is, how did that come about? And that 
is really all we are asking. And the line of questioning on the 
other side of the aisle was, was there intention? And the 
response was, well, no, there was no intention. OK, fine. 
Produce the documents. What is there to hide?
    And in regard to the documents, the reason that we 
subpoenaed you for those documents is because we want to get 
the information. I acknowledge the Department of the Interior 
hasn't given us a good reason. They have not asserted Executive 
Privilege, for example, on that. That would be their fallback 
position.
    So I will just simply say, in light of what line of 
questioning that Mr. McClintock had of you and your 
responsibility to produce those documents and my response to 
him about how this Committee intends to go as far as we need to 
to get that information, and again, if there is nothing there, 
what is there to hide?
    So I would ask you to maybe reconsider what your thoughts 
were, and this will----
    Mr. Lujan. Mr. Chairman, if I could ask unanimous consent?
    The Chairman. I will recognize the gentleman for unanimous 
consent.
    Mr. Lujan. Chairman, thank you for your indulgence.
    I would ask unanimous consent to submit a statement into 
the record, a three-page statement.
    [The prepared statement of Mr. Lujan follows:]

Statement of The Honorable Ben Ray Lujan, a Representative in Congress 
                      from the State of New Mexico

    I want us all to remember what was going on at the time Secretary 
Salazar made the recommendation for a six-month drilling moratorium in 
the Gulf. More than 60,000 barrels of oil per day were spilling into 
the Gulf. Despite the assurances that had been made by BP in its oil 
spill response plan that, as we know now, was seriously inadequate in 
containing the spill.
    That was the reason we had a moratorium. It was clearly 
demonstrated that there was no plan to contain the Macondo well and a 
moratorium was necessary to assess and contain the damage. My 
colleagues act as if the Administration pulled this moratorium out of 
thin air, or as if there was some internal conspiracy within the 
Department of Interior to stop drilling in the Gulf. These assumptions 
are ludicrous and we must remember the seriousness of the situation and 
the tremendous damage the spill caused.
    I'd like to point out the fact that BP, in it's scrambling to deal 
with the spill, made increasingly desperate attempts to stop the spill 
including the infamous ``Junk Shot'' where they shot golf balls and 
bits of shredded rubber into the oil spewing well to try and plug it.
    The last thing we needed at that time was a second disaster, as it 
was clear BP could not respond to the first. That is the point here. 
Secretary Salazar implemented a drilling moratorium to stop further 
damage, not to arbitrarily penalize oil companies.
    I want to reference the Wall Street Journal article entitled 
``Effort to Plug Well Hangs in Balance'' published on May 29, 2010. 
This article outlined the many failed attempts to plug the well and the 
public's outrage at the spill.
                                 ______
                                 
U.S. NEWS
May 29, 2010
Effort to Plug Well Hangs in Balance
By MIGUEL BUSTILLO and GUY CHAZAN
    GRAND ISLE, La.--BP PLC struggled for a second day Friday to stop 
the oil gushing from the area where the Deepwater Horizon blew up, as 
President Obama traveled here to try to assure residents the federal 
government is doing everything it can to protect them.
    BP said its ``top kill'' procedure is beating back the Gulf of 
Mexico oil leak, but the job is not finished.
    The president's visit to Grand Isle, a thin barrier island on the 
far southern tip of Louisiana about two and a half hours south of New 
Orleans, came as BP faced a day of stops and starts in its latest 
effort to stem the flow of oil. In the operation, known as a ``top 
kill,'' heavy drilling liquids were being pumped into the well to stem 
the gushing oil.
    The president's trip came after several days of rising criticism in 
Washington and from local and state officials, coastal residents and 
fishermen that his administration hasn't taken command of the Gulf 
spill. It was Mr. Obama's second trip to the Louisiana coast since the 
Deepwater Horizon exploded April 20, killing 11, rupturing the pipe 
below and setting off the largest oil spill in U.S. history.
    After picking up tar balls on a beach here, Mr. Obama met the 
governors of Louisiana, Alabama and Florida and local officials. 
Nearby, a young man held a hand-written sign reading, ``Clean up the 
Gulf,'' in black letters resembling dripping oil.
    Flanked by the governors, the president acknowledged the 
frustration and anger wouldn't lift until the flow is stopped and the 
oil is cleaned. But he gave what he called a solemn pledge: ``We will 
hold ourselves responsible to do what it takes, as long as it takes, to 
stop this catastrophe, to repair the damage and to keep this region on 
its feet.''
    His brief visit, interrupting a Memorial Day vacation in Chicago, 
followed a series of moves Thursday that included slamming the brakes 
on offshore oil drilling and accepting the resignation of his top oil 
regulator.
    Though some Louisianans have expressed wariness of the government 
since Hurricane Katrina in 2005, it has taken time for anger over the 
oil spill to build. Some residents were initially optimistic about the 
Obama administration's promise to respond swiftly to the disaster.
    Weeks later, the oil threatens to degrade Louisiana's fragile 
marshlands, doing long term damage to the state's vital fishing and 
tourism industries. And initial hopefulness has eroded in recent days 
as the federal government has continued looking for direction to BP, 
which has been unable to put a stop to the runaway spill despite 
company and government spending of more than $930 million.
    President Obama said experts were ready to intervene if the ``top 
kill'' operation failed. Doug Suttles, BP's chief operating officer, 
said Friday afternoon it was still unclear whether the procedure had 
been a success, although it was ``going basically according to plan.''
    The company has already started discussing a new back-up plan, 
which could be deployed in a couple of days, and would involve cutting 
and removing the damaged pipe from which the crude is leaking. BP would 
then lower a containment dome onto the top of the huge stack of valves 
standing on the seabed known as a blow-out preventer and bring oil and 
gas through it up to a waiting vessel on the surface.
    In the meantime, BP continued Friday periodically pumping heavy 
fluid under pressure into the blowout preventer and then monitoring the 
results. Theoretically, the fluid should be heavy enough to counteract 
the pressure of the oil surging upwards. If the operation proves 
successful, cement would then be injected into the well to seal it.
    '' Throwing multiple levels of bureaucracy and politically fearful 
middle managers into a project does not tend to get things done quickly 
or efficiently. ''--Tom Tucker
    The company was also injecting junk, such as golf balls and 
shredded tires, to plug leaks in the blowout preventer. Mr. Suttles 
said that was ``helping to some degree.''
    All these procedures would still be stop-gap measures until a 
relief well can be drilled, which will take two months or more.
    Meanwhile, as oil has begun washing ashore, state and local 
officials have begun complaining more vocally about a lack of 
assistance from the federal government on the front lines of the 
disaster.
    Louisiana U.S. Sen. David Vitter, a Republican, called the federal 
response ``B.S.'' and suggested the president cancel his weekend 
vacation Friday during a radio interview with always-lively New Orleans 
talk radio station WWL, which serves as a lightning rod for local 
angst.
    One caller grumbled, ``Is the Louisiana fishing industry not on the 
'too big to fail' list?''
    Louisiana Gov. Bobby Jindal, a Republican, this past week 
criticized federal authorities for not providing enough boom to protect 
the Louisiana coastline, while local parish leaders complained that it 
is taking too long to cut through federal red tape and obtain 
permission to build sand berms along the coast to block oil from moving 
inside.
    ``I'm not for bigger government, but it is time for the president 
to take over,'' Billy Ward said Friday as he walked along Grand Isle's 
beach. ``BP cut corners and now all of southern Louisiana is suffering. 
If you can't fish here, this island is dead.''
    The beaches here, which would have swelled this holiday weekend 
with visitors, were blocked off with wooden ``Beach Closed'' signs 
largely and devoid of visitors Friday other than cleanup crews.
    An unusually high number of crews arrived in yellow school buses 
Friday morning, worked feverishly to tidy up the beaches prior to the 
president's arrival, and then quickly left after he flew past, angering 
some locals.
    ``Right when the helicopters got out of view, they took their work 
clothes off and threw them in the trash,'' said Bill Hadaway, 58, an 
electrical contractor.
                                 ______
                                 
    Mr. Lujan. And, also, Mr. Chairman, unanimous consent to 
submit an article from the McClatchy-Tribune News Service, 
Sunday, May 9, 2010, from cleveland.com titled, ``Oil Spill 
Junk Shot: BP Tries Tire Shreds, Golf Balls to Clog Leak.''
    The Chairman. Without objection, that will be part of the 
record.
    [The article submitted for the record by Mr. Lujan 
follows:]
The Miami Herald.
Oil spill junk shot: BP tries tire shreds, golf balls to clog leak
Published: Sunday, May 09, 2010, 4:26 PM Updated: Sunday, May 09, 2010, 
        4:32 PM By McClatchy-Tribune News Service The Plain Dealer
JENNIFER LEBOVICH, DONNA MELTON and PATRICIA MAZZEI, McClatchy 
        Newspapers
    BILOXI, Mississippi--If you can't turn it off, try clogging it: 
Golf balls and shredded tires may be the latest solution to stop a leak 
spewing crude into the Gulf, a top Coast Guard official said Sunday 
morning.
    ``The next tactic is going to be something they call a junk shot,'' 
U.S. Coast Guard Commandant Thad Allen said on Face the Nation.
    ``They're actually going to take a bunch of debris, shredded up 
tires, golf balls and things like that and under very high pressure 
shoot it into the preventer itself and see if they can clog it up and 
stop the leak,'' Allen said. The concept has been used before but is 
``exotic'' and Allen cautioned there were difficulties with that plan 
as well.
    It was not clear when such a plan--developed by BP--might be put in 
place.
    But the effort to plug one of the leaks with debris came as the oil 
giant was reassessing its options, a day after an attempt to lower a 
78-ton dome over the largest leak hit a major setback.
Crystals clog concrete dome
    Ice-like crystals clogged the inside of the steel-and-concrete dome 
during attempts to put it in place on Saturday.
    On Saturday, the crystals forced officials to move the steel-and-
concrete dome, which is still on the sea bed, some 650 feet away from 
the well--and to scramble to find ways to stop the water-and-gas 
crystals from forming.
    Despite the let down, officials said they are looking for other 
ways to make the dome work.
    Continued efforts to combat the oil plume on the water's surface 
and the leak a mile below come as tarballs were reported over the 
weekend in an Alabama island.
    As of Sunday morning, the U.S. Coast Guard reported 17 flights had 
been conducted Saturday which dropped 41,690 gallons of dispersal fluid 
onto the slick.
    On Saturday, more than 20 boats had skimmed 21,851 barrels of oily 
water from the Gulf. And over 928,265 feet of boom has been laid out or 
assigned to a vessel to protect the coasts of Louisiana, Mississippi, 
Alabama and Florida.
    The dome was considered the best short-term solution to stop much 
of the spill.
    Officials had hoped to contain 85 percent of the estimated 210,000 
gallons gushing daily from the well by funneling oil to the surface 
from the dome, which is really a 78-ton box with a pyramid on the top. 
The 40-foot box took about two weeks to build.
Hydrate slush lifts dome
    But the crystals, which are called hydrates and resemble slush, 
obstructed the flow of the oil, said Doug Suttles, chief operating 
officer of BP, the London-based company that owns the leaking well. 
They also made the dome too buoyant, which prevented the dome from 
making a water-tight seal as planned.
    Hydrates form when gas and water mix at low temperature and high 
pressure, as occurs at the bottom of the sea.
    Suttles said experts will spend the next few days looking at 
possible solutions, while other surface efforts continue, like burning 
oil and using chemicals called dispersants to break up the oil.
    The Deepwater Horizon oil rig exploded April 20 about 50 miles off 
the Louisiana coast. Suttles said six BP employees were among the 126 
people on the rig when it exploded. They had been there to discuss 
safety after the rig had gone more than 2,500 days without a 
significant accident.
    ``This rig had an outstanding record,'' Suttles said.
    Eleven people were killed in the explosion--although the BP 
employees escaped safely.
Sen. Bill Nelson attacks big oil
    On Sunday, Florida Sen. Bill Nelson appeared on CNN and said Big 
Oil has stymied congressional efforts to crack down on safety.
    ``Big oil wants its way,'' the Florida Democrat said. ``They've 
been trying to bully their way to drill off the coast of Florida . . 
.'' Nelson said congressional hearings were ``what a number of us have 
been calling for. And we could never get to first base because big oil 
would flex its muscle, call in its votes and we could never get 
anything done. Tragically, it's going to take this disastrous oil spill 
to finally clamp down on it.''
    Alabama Republican Sen. Richard Shelby meanwhile, suggested it was 
the White House's responsibility. Although no cause has yet been 
identified for the explosion, Shelby charged, ``a lot of this could 
have been prevented. I don't know where the regulators were on this, 
they certainly were asleep,'' he said. ``And where was BP? Were they 
trying to do this on the cheap?''
    In the days before the attempt to lower the dome over the leak, 
officials had warned that problems could arise with the dome plan, 
which had never before been carried out at the depth of the leaking oil 
well, 5,000 feet below the surface of the Gulf of Mexico.
    BP officials had specifically cautioned that crystals would be a 
challenge and had pumped warm water down a hose to keep the temperature 
high enough to prevent the crystals from forming. But that was not 
enough, Suttles said.
    He added the crystals are not difficult to unclog--they melt when 
the box is lifted higher in the water. The trick is to keep the gas and 
water from crystallizing while keeping the box on the sea bed.
    [IMAGE] View full size Associated Press An oil-stained cattle egret 
rests on the deck of the supply vessel Joe Griffin at the site of the 
Deepwater Horizon oil spill containment efforts in the Gulf of Mexico 
off the coast of Louisiana Sunday, May 9, 2010. There might be ways to 
do that, according to Suttles. Options include heating the dome or 
injecting methanol, a chemical frequently used as a solvent, inside the 
box.
    But officials kept expectations low.
    ``It's very difficult to predict whether we will find solutions,'' 
Suttles said.
Tar balls washing up
    Meanwhile, a Coast Guard official reported tar balls believed to be 
from the spill were washing up on an Alabama barrier island, according 
to The Associated Press.
    More than 60 miles west, a representative from Biloxi's Ship Island 
Excursions said people were taking ferries Saturday, loaded with beach 
equipment for a day of fun in the sun.
    ``The beaches are beautiful and the water's great,'' Kevin Buckel 
said. He said no signs of oil were reported during their two trips out 
Saturday, and he expected the same results Sunday.
    ``We're hoping for the best,'' he said.
    Nearly one million feet of oil-absorbing boom has been placed along 
Gulf shores in preparation for oil reaching land, Suttles said.
    About 2.1 million gallons of an oil-water mix has been collected 
since the spill began, the Coast Guard said Saturday, and almost 
290,000 gallons of dispersants have been used to break up the oil on 
the water's surface.
    ``I don't think any of us know at this time what the impacts will 
be on the environment or the economic issues associated with this 
spill,'' said Coast Guard Rear Adm. Mary Landry, who is helping 
coordinate the federal response to the spill.
    Friday's calm weather allowed for five successful burns of oil on 
the water's surface, though no more burns would likely take place until 
Monday because of inclement weekend weather.
    Suttles said a hotline has received more than 35,000 calls from 
people about the spill, more than half of them asking to help.
    The Coast Guard and the Minerals Management Service of the U.S. 
Interior Department will begin a joint investigation Tuesday to 
identify the factors leading to the explosion and oil spill. Public 
hearings for the investigation will be held Tuesday and Wednesday in 
New Orleans.
    Congressional committees have also announced they will hold 
hearings on the spill.
    Melton, of the Sun Herald, reported from Biloxi, Miss.; Mazzei, of 
The Miami Herald, reported from Miami. Lesley Clark and Christina Veiga 
of The Miami Herald also contributed to this article.
                                 ______
                                 
    The Chairman. And I also ask unanimous consent that the 
exhibits used during this hearing be included in the record. 
And, without objection, that will be so ordered.
    [NOTE: The exhibits have been retained in the Committee's 
official files.]
    The Chairman. Once again, I thank both of you for coming 
here.
    This is a serious matter. We are simply trying to get 
information. And if there is nothing there to hide, then why 
not produce the documents? Very straightforward. And you have 
been called up here, and we asked for your documents. You 
haven't complied with that, but that matter is not over.
    And so, with that, with no business to come before the 
Committee, the Committee stands adjourned.
    [Whereupon, at 12:25 p.m., the Committee was adjourned.]

                                 <all>

</pre></body></html>
